<html>
<title> - EGYPT AT A CROSSROADS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                         EGYPT AT A CROSSROADS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2012

                               __________

                           Serial No. 112-128

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                               ______


                  U.S. GOVERNMENT PRINTING OFFICE
72-876                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New 
EDWARD R. ROYCE, California              Jersey<greek-l>deceased 3/6/
STEVE CHABOT, Ohio                       12 deg.
RON PAUL, Texas                      BRAD SHERMAN, California
MIKE PENCE, Indiana                  ELIOT L. ENGEL, New York
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
CONNIE MACK, Florida                 RUSS CARNAHAN, Missouri
JEFF FORTENBERRY, Nebraska           ALBIO SIRES, New Jersey
MICHAEL T. McCAUL, Texas             GERALD E. CONNOLLY, Virginia
TED POE, Texas                       THEODORE E. DEUTCH, Florida
GUS M. BILIRAKIS, Florida            DENNIS CARDOZA, California
JEAN SCHMIDT, Ohio                   BEN CHANDLER, Kentucky
BILL JOHNSON, Ohio                   BRIAN HIGGINS, New York
DAVID RIVERA, Florida                ALLYSON SCHWARTZ, Pennsylvania
MIKE KELLY, Pennsylvania             CHRISTOPHER S. MURPHY, Connecticut
TIM GRIFFIN, Arkansas                FREDERICA WILSON, Florida
TOM MARINO, Pennsylvania             KAREN BASS, California
JEFF DUNCAN, South Carolina          WILLIAM KEATING, Massachusetts
ANN MARIE BUERKLE, New York          DAVID CICILLINE, Rhode Island
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Lorne Craner, president, International Republican 
  Institute......................................................    11
Mr. Kenneth Wollack, president, National Democracy Institute.....    20
The Honorable David J. Kramer, president, Freedom House..........    31
Ms. Joyce Barnathan, president, International Center for 
  Journalists....................................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Lorne Craner: Prepared statement...................    13
Mr. Kenneth Wollack: Prepared statement..........................    22
The Honorable David J. Kramer: Prepared statement................    34
Ms. Joyce Barnathan: Prepared statement..........................    43

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Robert Turner, a Representative in Congress from 
  the State of New York: Prepared statement......................    75
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    77
Questions submitted to the panel for the record by the Honorable 
  Russ Carnahan, a Representative in Congress from the State of 
  Missouri.......................................................    79
  Responses from the Honorable Lorne Craner......................    80
  Responses from the Honorable David J. Kramer...................    82
  Responses from Mr. Kenneth Wollack.............................    83


                         EGYPT AT A CROSSROADS

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    After recognizing myself and the ranking member, my friend 
Mr. Berman, for 7 minutes each for our opening statements, I 
will recognize the chair and the ranking member of the Middle 
East and South Asia Subcommittee for 3 minutes each for their 
statements, and I would also like the members to give 1-minute 
opening statements if they desire.
    We will then hear from our witnesses. I would ask that you 
summarize your prepared statements to 5 minutes each before we 
move to the question and answer period under the 5-minute rule. 
Without objection, the witnesses' prepared statements will be 
made a part of the record, and members may have 5 days to 
insert statements and questions for the record, subject to the 
length limitation in the rules.
    The Chair now recognizes herself for 7 minutes.
    On February 1, 2011, President Obama stated that a 
transition process in Egypt ``should result in a government 
that is not only grounded in democratic principles but is also 
responsive to the aspirations of the Egyptian people.''
    If 1 year ago you had asked U.S. policy makers what kind of 
developments they were concerned about in Egypt, they might 
have expressed doubts as to how much real power the military 
would be willing to give up. They might have indicated concern 
about a rush to hold parliamentary elections, a rush that would 
benefit a well-organized radical Islamic group like the Muslim 
Brotherhood, while leaving fledgling secular political parties 
out in the cold.
    And they might have said that they were worried that the 
new Egyptian Government would follow in the Mubarak 
government's footsteps by continuing to restrict the activities 
of domestic and foreign non-governmental organizations engaged 
in democracy promotion. Unfortunately, all of these fears have 
been realized, and then some.
    In particular, the Egyptian Government's treatment of pro-
democracy NGOs is in direct contradiction with the democratic 
principles and is not responsive to the aspirations of the 
Egyptian people. In fact, the Egyptian Government's politically 
motivated treatment of these NGOs is actually worse than the 
way they were treated by the Mubarak regime.
    The government has raided and closed their offices, seized 
their assets and funds, launched a media campaign against them, 
prohibited their employees from leaving the country, and has 
announced that it intends to prosecute 43 of their employees, 
including 16 Americans and 14 Egyptians.
    Egypt's Minister for International Cooperation--a holdover 
from the Mubarak era--is reportedly behind many of these 
actions and stated that the government's announcement of 
charges against the NGO employees makes clear ``the 
government's seriousness about discovering some of these 
groups' plans to destabilize Egypt.''
    But the activity of these NGOs have nothing to do with 
destabilizing Egypt and everything to do with offering the 
Egyptian people assistance in their pursuit of freedom, in 
pursuit of democratic governance that will uphold and protect 
their fundamental human rights and liberties. Hostility to 
democracy and human rights is why the Mubarak regime restricted 
the operations of these NGOs and refused to process their 
applications for registration.
    It is the same totalitarian mind-set that is driving the 
current Egyptian Government to carry out this crack down. 
However, this is not the only issue of concern. Egyptian 
religious minorities are facing persecution by the very 
extremists that not only have assumed positions of power in the 
Parliament, but are now questioning the utility of the Egypt-
Israel Peace Treaty. These are very concerning trends.
    If the United States continues to provide assistance to 
Egypt, even as our own citizens are persecuted and our taxpayer 
dollars are unjustly seized, then we will be sending a number 
of unacceptable messages: That we will acquiesce in and 
bankroll Egypt's assault on pro-democracy forces and the 
isolation of secular sectors; that we will acquiesce in and 
bankroll other unacceptable behavior by the Egyptian 
Government, including backsliding on the Peace Treaty with 
Israel; that we will stand idly by as other foreign governments 
that are U.S aid recipients act in blatant contravention of 
U.S. values, of democratic standards, and of their 
international obligations.
    Both the executive branch and Congress must make clear that 
to resolve this situation the Egyptian Government must 
immediately return all assets and funds that were seized in the 
raids of the NGOs and allow them to reopen their offices and 
resume their work. It must also end the politically-motivated 
investigations and prosecutions of these NGOs and end the media 
campaign against them.
    The Egyptian Government must also comply with international 
human rights standards and provide these organizations with 
freedom of operation throughout the country. The Egyptian 
Government's actions cannot be taken lightly and warrant 
punitive action against certain Egyptian officials and 
reconsideration of U.S. assistance to Egypt, for even if this 
issue were resolved tomorrow this episode will color the way in 
which assistance is provided to Egypt.
    While the Supreme Council of the Armed Forces bears 
ultimate responsibility for the strain in relations, the 
Minister of International Cooperation should not be exempt from 
punitive actions. This is not about sovereignty but about 
patronage and corruption. Therefore, no further U.S. assistance 
should be provided to any ministry that is controlled by the 
Minister of International Cooperation.
    I yield back the balance of my time, and it is a delight to 
yield to my friend Mr. Berman for his opening statement.
    Mr. Berman. Well, thank you very much, Madam Chairman. On 
December 29, Egyptian police raided the Cairo offices of the 
NGOs represented before us today and confiscated all of the 
cash and materials on hand. As we know, the investigation has 
proceeded from there, and numerous employees of the NGOs--
American, Egyptian, and third country--have been put on notice 
that they are likely to be prosecuted for the alleged crime of 
working with unregistered or ``illegal'' organizations.
    And I should note it wasn't only U.S. NGOs that were 
raided. The police also went after several Egyptian NGOs as 
well as the German Konrad Adenauer Foundation.
    The facts of this crisis and the rationale for the Egyptian 
action remain somewhat murky. The raids occurred at a time when 
by all reports pressure on the NGO community had been easing. 
In fact, the Egyptian Government had invited NDI and IRI to 
sponsor delegations of international election observers, and 
these delegations conducted their work largely without 
interference during the two rounds of voting prior to the 
raids, and the one round that took place after the raids.
    We are here today to listen and learn from these NGO 
leaders, all of them experts on building civil society and 
democracy. In particular, I would be interested in exploring 
the following issues with you. What is the nature of the work 
that your organizations do in Egypt, and why are some Egyptian 
authorities so concerned about it? What is the current 
situation of your employees and your offices? What does the 
case against your employee--where does the case against your 
employees stand, according to your best information?
    And what can you tell us about the way Egypt works that 
might have led to this case? In your view, who or what is 
driving this case? How hopeful are you that it can still be 
resolved without convictions and prison terms? And, lastly, 
what are the prospects that your organization's presence in 
Egypt can be normalized?
    As members of the Foreign Affairs Committee, we cannot 
ignore the larger context in which this crisis takes place. 
Egypt is the largest and most important state in the Arab 
world. Its peace with Israel has been an anchor of stability 
and U.S. strategy in the Middle East. Egyptian-Israeli wars 
used to occur almost like clockwork once a decade. As of now, 
there has not been an Egyptian-Israeli war for nearly 40 years. 
And as a result, thousands of people are alive today who 
probably otherwise would not be.
    The Egyptian-Israeli Peace Treaty is a boon for Egypt and 
for Israel, but it is also a boon for United States interests. 
Our close relationship with Egypt provides us with many 
benefits. Most notably, our ships, including vessels critical 
to our national security, are able to pass routinely through 
the Suez Canal, often on a priority basis.
    Our relationship with Egypt began growing close almost 
immediately after the 1973 war when Henry Kissinger was 
negotiating a cease fire. It was foreshadowed by Sadat's 
summary expulsion of Soviet advisors in 1972 and sealed by the 
1979 Peace Treaty.
    The U.S. and Egypt have been in effect strategic partners 
ever since, but it wasn't always so. From the mid-1950s onward, 
Gamal Abdel Nasser's Egypt was stridently anti-Western and 
anti-U.S. and a Soviet ally. In fact, Nasser--charismatic and 
gifted order that he was--turned much of the Arab world against 
the U.S. Nasser died in 1970, and later that decade the U.S. 
and Egypt initiated a partnership that could have not been 
remotely envisioned during the Nasser years.
    This NGO crisis raises the specter that there are perhaps 
some in Egypt who would like to see the pendulum swing back to 
the bad old days. Egypt is important, and its friendship cannot 
be taken for granted, so we have to think carefully as to how 
this outrageous action against U.S. NGOs and against civil 
society in general fits into the overall bilateral 
relationship.
    I am a strong supporter of U.S.-Egyptian ties, but I do 
know this. We have no more serious responsibility in foreign 
policy than that of ensuring that our citizens are not abused. 
And one dimension of this current issue cannot be brushed 
aside--foreign assistance.
    Current law requires that as a condition for the dispersal 
of military assistance to Egypt the Secretary of State must 
certify that Egypt is implementing policies that protect 
freedom of expression, freedom of religion, freedom of 
association, and rule of law.
    And although the law allows for a waiver, I cannot imagine 
the Secretary could either make that certification or waive the 
requirement, as long as this NGO case moves forward. And I 
would not encourage her to do so.
    I thank the chairman for holding this important hearing. I 
look forward to hearing from our distinguished panel of 
witnesses and yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman.
    I am pleased to yield to Mr. Chabot, the chairman of the 
Subcommittee on Middle East and South Asia, for his opening 
remarks.
    Mr. Chabot. Thank you, Madam Chair, and thank you all for 
being here today. And thank you for calling this timely and 
important hearing, Madam Chair.
    Just yesterday the Middle East and South Asia Subcommittee 
held a hearing which addressed the current challenges in the 
U.S.-Egyptian relations, as well as the general state of 
affairs on the ground in Egypt. Although the witnesses did not 
agree on everything, there was consensus that the current 
crisis surrounding the December 29 raids on several NGOs are 
deeply, deeply disturbing.
    Moreover, since these initial raids, the Government of 
Egypt has taken numerous actions which have directly escalated 
the situation, calling into question its commitment to the 
principles of democratic governance. With each passing day and 
each additional escalation, the Government of Egypt makes it 
much more difficult to resolve this matter than should be.
    Contrary to the belief of many in Egypt, these NGOs pursued 
a singular goal--to assist the people of Egypt in advocating 
for the protection of their own human and civil rights at this 
critical time in their transition. Certain elements of the 
current Egyptian Government are, however, using this incident 
for their gain in a despicable act of political posturing.
    The Minister of International Cooperation, Faiza Abou el-
Naga, who initiated the investigation, has blatantly attempted 
to tap into Egyptian nationalist fervor. Referring to the U.S. 
funding of NGOs like IRI and NDI, she is reported to have said 
just a few days ago, and I quote,

        ``Evidence shows the existence of a clear and 
        determined wish to abort any chance for Egypt to rise 
        as a modern and democratic state with a strong economy, 
        since that will pose the biggest threat to American and 
        Israeli interests, not only in Egypt but in the whole 
        region.''

    It is my belief that as the chief agent provocateur in this 
ordeal, Abou el-Naga has shown very clearly that she cannot be 
trusted as the custodian of American taxpayer dollars. And, 
accordingly, U.S. assistance should be conditioned on her 
removal as the administrator of our foreign aid.
    Despite the current crisis, Egypt has for decades been a 
critical ally of the United States in the Global War on Terror 
and in the pursuit of Arab-Israeli peace. Hopefully, the 
Government of Egypt will take the appropriate de-escalating 
measures in the near future.
    A refusal to return all seized property, terminate its 
travel ban, drop all charges against American and Egyptian NGO 
employees, and allow these organizations to operate free of 
constraints, will certainly have a most negative effect on the 
broader U.S.-Egyptian relationship and will necessitate a 
strong reconsideration of U.S. assistance to Egypt.
    I look forward to hearing from our witnesses here today 
about the status of their operations on the ground, and above 
all what we can do to help ensure that their staff remains safe 
and are freed as soon as possible.
    I yield back. Thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Chabot, for 
your opening statement.
    We will now hear from Ranking Member Gary Ackerman on the 
subcommittee. Thank you.
    Mr. Ackerman. Thank you, Madam Chair. We are here today 
because of the NGO prosecution crisis in Egypt. As a friend of 
Egypt, I am angry, dismayed, and deeply concerned. I am angry 
that some parts of the Egyptian Government have behaved so 
shamelessly and with such blatant disregard for their country's 
own long-term interests.
    I am dismayed that the U.S.-Egypt relationship, which has 
served both countries so well for more than three decades, is 
being used as a political football and reduced to the size of 
one absurdly rigged and politicized show trial. I am deeply 
concerned that the cynical demagoguery that has set this legal 
farce in motion has already done severe damage to our bilateral 
relationship at such an absolutely critical time.
    To my friends in Egypt, some of whom seem to believe that 
the $1.5 billion we gave them this year alone is theirs by 
right, here is a newsflash: The administration will not certify 
that you are making progress toward democracy while this 
process goes on. They will not issue a waiver either, because 
if they did we in Congress would both remove the waiver and 
take our money back in record time.
    And here is another fact: You are going to be broke soon, 
if the Egyptian currency reserves are nearly exhausted and 
there is little reason to believe that they could be 
replenished without international aid. Who do you think is 
going to be essential to you in convincing the international 
community to once again consider providing loans after you so 
foolishly and bruskly sent the IMF and The World Bank packing.
    When you can't pay for wheat, and your public can't get 
bread, who do you plan to call? Russia? China? You might as 
well call Togo.
    Two more facts. More than 10 percent of your economy comes 
from tourism. Direct foreign investment is the only way to 
rapidly create jobs for the 30 percent of your population 
between the ages of 15 and 29. Without the peace and stability 
and cooperation in fighting terrorism that have come with 
partnership with the United States, how many tourists do you 
think will come to see the Pyramids? How many big investments 
are you expecting for the international economy deemed to be 
too unsafe for American investors? To my friends in Egypt, 
these are plagues that you do not need.
    There are also a few facts for us to consider. Egypt is 
big, very big. If all 22 Arab nations had one 435-seat House of 
Representatives, Egypt alone would occupy a quarter of them. 
Eight percent of all global maritime trade goes through the 
Suez Canal, as do a million barrels of oil every day. And for a 
generation, American warships--about a dozen a month--have gone 
to the front of the line whenever we have asked, saving us 
hundreds of millions of dollars.
    And one last thing--prior to the Camp David Accords, and 
all of the aid and the special strategic relationship, Egypt 
and Israel, nonetheless, went to war, and quite often, too--in 
1948, again in 1956, '67, '70, and hopefully for the last time 
in 1973, the Yom Kippur War. That war and the threat of Soviet 
intervention led the United States to go to DevCon 3, only one 
step below the level of the Cuban Missile Crisis.
    Egypt is big; Egypt matters. It matters a lot to us and to 
our key allies in the region as well. Both nations have to get 
beyond this NGO crisis and focus on what really matters. I know 
we are really ready to work with the authorities in Egypt, but 
they have to be willing to work and accept responsibility for 
solving that problem as well.
    Unto Egypt we say, ``Let our people go, and do it soon.''
    Chairman Ros-Lehtinen. Thank you very much, Mr. Ackerman.
    Mr. Smith, the chairman of the Subcommittee on Africa, 
Global Health, and Human Rights, is recognized.
    Mr. Smith. Thank you very much, Madam Chair, and thank you 
for calling this extremely important and timely hearing and for 
inviting such true heroes of democracy and freedom to testify, 
especially when IRI has some 14 NDI, 15 Freedom House, 7 
International Center for Journalists, 5 in the Konrad Adenauer, 
who are not here but here in spirit, people who are being 
unjustly held and subjected to prosecution.
    I would just say very briefly in the minute that I have, 
persecuting the men and women who toil to ensure that human 
rights, the rule of law and democracy, are respected in Egypt 
is not only unconscionable, but it is absurd. The selfless 
people represented by their leadership here today who give of 
themselves, who spend countless hours trying to help birth a 
freer Egypt where all can participate, is not only--it is 
counterproductive, but it is--like I said before, it is absurd.
    So, again, I look forward to your testimonies. Looking 
through them, as you have all pointed out, you have been open, 
you have been transparent in the work that you have done in 
Egypt, and it is time for the release of all of these very 
brave and courageous people to be effectuated.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Smith.
    Mr. Faleomavaega is recognized.
    Mr. Faleomavaega. Madam Chair, thank you. And I think there 
is no question--we have been well over a year now--that we have 
expressed serious concerns about what has happened since the 
overthrowing of Mubarak. I do look forward to hearing from our 
witnesses this morning, and thank you for holding this hearing.
    Chairman Ros-Lehtinen. Thank you very much, sir.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, is recognized.
    Mr. Royce. Thank you, Madam Chair. The organizations that 
we have with us today have been building the infrastructure of 
democracy for a long time in some very hostile environments. I 
had an opportunity to hear Lorne Craner on the radio recently 
saying that the situation in Egypt, in his view, was the worst 
that the IRI had faced. Worse than China, worse than Venezuela, 
worse than Zimbabwe.
    And this is about more than the predicament that these 
Americans find themselves in today, because this goes to the 
future of Egyptian civil society, and in a way perhaps the 
future of the entire region. Elements of the old Mubarak regime 
clearly drove this wedge, but leaders of the Muslim Brotherhood 
have been speaking out in favor of this NGO crackdown, and they 
will soon consider a harsher NGO law in Parliament, I 
understand.
    So it is encouraging today that many of the 400 Egyptian 
NGOs now under scrutiny are stepping up to defend these 
American groups, but I think what we have to realize is that 
democracy and human rights have many determined and very 
ruthless enemies in Egypt.
    If we look at the plight of the Coptic Christians, if we 
look at the plight of those in civil society struggling to 
bring order out of chaos, you realize that this is going to be 
a very, very rocky road ahead.
    Thank you very much, Madam Chair, for holding this hearing 
today, and I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman. You know, we had a 
subcommittee hearing on this topic yesterday, and I guess what 
is particularly troubling is that somebody within the fold of 
the Egyptian Government, the broader government in transition, 
decided consciously to pick a fight with the United States. And 
they did it with malice of forethought. One might accuse them 
of doing it maladroitly, however, because they actually have 
finally united Republicans and Democrats by picking on both.
    But it is not a trivial matter, and obviously we want to 
move forward with this relationship. As the ranking member 
said, this is a very important relationship for the United 
States and for Middle East peace. We have got to make it work. 
But we can't turn a blind eye to what has occurred with our 
non-governmental organizations who are doing, you know, good 
work in trying to build democratic institutions all over the 
world, including in Egypt.
    And so I look forward to the testimony today, and I look 
forward particularly to suggestions or recommendations for how 
all of us can step back and retrieve the amicable relationship 
we must have with Egypt.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Burton, the chairman on the Subcommittee on Europe and 
Eurasia.
    Mr. Burton. I think, Madam Chairman, that just about 
everything that needs to be said has been said. I would just 
like to add one little caveat, and that is that I am concerned 
not only in Egypt but throughout the entire northern tier of 
Africa and the Persian Gulf region we have organizations like 
the Muslim Brotherhood and other even more radical 
organizations, in my opinion, that are going to be in 
leadership positions.
    And my colleague mentioned the Coptic Christians in Egypt 
and how some of them have been persecuted. And I would just to 
say, not only to Egypt but to the entire Muslim world in that 
part of the world, that tolerance for religious differences is 
something that really needs to be understood, because if we see 
religious persecution like we have seen in some parts of that 
region, like the Coptic Christians, it could lead to even more 
severe problems in the future.
    So this is not confined to Egypt, but it is one of my 
concerns. And I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Sires of New Jersey.
    Mr. Sires. Thank you, Madam Chair, for holding this 
meeting. And I want to thank you for being here today and the 
kind of work that you do and all of the hardships that you go 
through in some of these different places.
    But for the life of me, I don't know whether this is a 
foolish move or a very calculated move to take on these NGOs at 
a time when Egypt is going through this transition and we are 
practically their best friends who can help them. They have no 
money, they have no food, and we will always be there to step 
in.
    But to me, I don't know how--whether it was foolish or 
calculated, because of the extremes that won most of the 
elections early on this--to the groups. So I thank you for 
being here, and I am looking forward to your comments.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Good question.
    Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Madam Chair. And I 
would like to thank the four organizations for being here 
today, and I want to join with my colleague, Congressman Sires, 
in that your organizations can be so beneficial for the people 
of Egypt. It is to enable the people of that country to truly 
impact in a positive manner. I have had a son serve there in 
the National Guard, so we know what an extraordinary country 
Egypt is.
    Also, I am very grateful, Madam Chair, to be an IRI 
alumnus. I have even seen Democrats and Republicans work 
together with NDI, and it has been real-world to me. I had the 
opportunity at the residual of observing the elections in 
Bulgaria, and then I had Stefan Stoyanov, a member of the 
National Assembly of Bulgaria, observe the elections in the 
United States.
    And then, just 3 weeks ago, I was grateful, after lecturing 
in Slovakia many years ago, the Ambassador Peter Burian from 
the Slovak Republic accompanied me on primary day in South 
Carolina. We went to 11 precincts, 5 counties, break-neck 
speed. He never complained, and of course it was very helpful.
    As we would go from precinct to precinct, he would run into 
people who had Slovak heritage, and so it was a really 
uplifting experience for him, for the people who met him, and 
so thank you for the residual effect of what you do.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Murphy of Connecticut.
    Mr. Murphy. Thank you very much, Madam Chair. Millions of 
Egyptians put their lives on the line to make a free Egypt, and 
so it is hard for a lot of people watching this to understand 
that within a year their leaders are behaving in some ways that 
is worse than the people that they ousted.
    But it is only a year later, and so I am really intrigued 
and excited to have this panel before us today, because I don't 
think the Egyptian people have forgotten the fact that this 
revolution was based on a new government founded on the 
principles of dignity and opportunity.
    And I don't think it is too late for this country to help 
its leaders and its people remember how we got to this point. 
The case against NDI, IRI, and Freedom House, and their 
Egyptian colleagues, it is not about criminal activity. It is 
just about picking a fight with the United States. And I look 
forward to this panel showing us a way that we can lead both 
the Egyptian Government, but also the people who helped make 
this moment possible, a way out.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Turner of New York.
    Mr. Turner. Thank you, Madam Chair. I am interested in 
hearing what the witnesses have to say on this self-destructive 
policy under the Egyptians right now and how the military and 
the Salafists have found common cause in creating this chaos. 
They should be natural enemies, but in this they seem united.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Schwartz of Pennsylvania.
    Ms. Schwartz. Well, thank you, and I also want to just echo 
some what has already been said, which is all of us watched 
with, you know, just intrigue and also just--enthusiasm may be 
too strong a word, but, you know, to see the uprising in the 
people in Egypt really demanding a new era and demanding 
freedom and democracy and opportunity, and to see a year later 
for the government and military to try and damp down the work 
you do, not only in Egypt but across the world is really--you 
put yourself in harm's way in some ways and seek to create a 
more vibrant democracy, or create a democracy.
    And we know this is not easy, and a transition to democracy 
is not easy--establishing those institutions in a rule of law 
and access politically for a group of people who rose up to 
demand it but don't have a rich history in knowing how to do it 
is really difficult.
    And I think as our ally, Egypt is an important--continues 
to be a very important ally to us. How this evolves for Egypt 
is just enormously important, not only for the people--not only 
for the Egyptians but also for the United States and for the 
region.
    So I want to thank you for your vital work. I also want to 
communicate--and I think one of the reasons for this hearing is 
to let the Egyptian leadership understand that their alliance 
with our nation, being strong allies, our friendship is not 
unconditional, that there are consequences.
    And so I think we look forward to your comments about what 
are appropriate--what might be appropriate in that regard, that 
is something you want to talk about, and how we go forward, 
again as allies, as friends, but also as people who want them 
to do this right. And we want to help them do it right.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, Ms. Schwartz.
    And now the Chair is pleased to welcome our witnesses. We 
will start with the Honorable Lorne Craner, who has been the 
president of the International Republican Institute (IRI) since 
2004. He previously served as Assistant Secretary for 
Democracy, Human Rights and Labor, for Secretary of State Colin 
Powell.
    Mr. Craner joined IRI as vice president for programs in 
1993, and served as president from 1995 to 2001. From 1992 to 
1993, he served at the National Security Council as a Director 
of Asian Affairs, and from 1989 to 1992 was Deputy Assistant 
Secretary of State for Legislative Affairs.
    Thank you, Mr. Craner.
    Our next witness will be Mr. Kenneth Wollack, who is 
president of the National Democratic Institute since 1993. He 
joined NDI in 1986 as an executive vice president, and before 
joining NDI Mr. Wollack co-edited ``The Middle East Policy 
Survey.''
    Thank you, Ken, for being here.
    The Honorable David Kramer is the president of Freedom 
House, which he joined in October 2010. He previously served as 
a senior transatlantic fellow at the German Marshall Fund. He 
served as Assistant Secretary of State for Democracy, Human 
Rights and Labor, from March 2008 to January 2009. He 
previously served as Deputy Assistant Secretary of State for 
European and Eurasian Affairs, as well as a professional staff 
member, in the Secretary of State's Office of Policy Planning.
    And, lastly, we will hear from Ms. Joyce Barnathan, who is 
the president of the International Center for Journalists 
(ICFJ). Ms. Barnathan is also the chair of the Global Forum for 
Media Development. Previously, she served as the executive 
editor for global franchise for Business Week.
    Welcome to each and every one of you, and we will begin 
with The Honorable Lorne Craner.

      STATEMENT OF THE HONORABLE LORNE CRANER, PRESIDENT, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Craner. Thank you very much. Chairman, Congressman 
Berman, thank you for the opportunity to testify this morning.
    On behalf of IRI, I want to express my deepest appreciation 
to all of you. For those us under fire in Egypt, your 
interest--mostly recently symbolized by this hearing--has been 
a great source of inspiration. You are all aware of IRI's work 
in Egypt, our effort since our arrival in 2006 to gain 
registration, the Mubarak regime's tolerance of our war, our 
expanded democracy-building efforts after his ouster, doing the 
same work we have done for 30 years in a hundred other 
countries, and Cairo's heightened interest last fall in our 
work, which we decided to respond to with unprecedented 
transparency.
    And you know the details of the armed raids on our offices, 
the subsequent hours-long interrogations of our staff--
Egyptians and Americans--our discovery of a No Fly list 
confining our staff to Egypt, and now the referral of this very 
political case against our employees for trial.
    What I want to talk about today is some of the broader 
context of these events. First, it is important to understand 
that the assaults on our organizations were just part of a 
general assault against Egypt's civil society. We have been on 
the front pages because we are Americans' organizations, but we 
are just the tip of the iceberg.
    On December 29, it was not just American and a German 
organization, Konrad Adenauer, that was raided. A number of 
Egyptian organizations were also the subject of raids. And it 
is not just foreign organizations that are the subject of 
political investigations. Four hundred Egyptian NGOs, mostly of 
the liberal variety, are also having their employees questioned 
and likely referred to trial.
    This is important not only to understand--not only to 
separate these raids from anti-Americanism or xenophobia, but 
also because it gives us an idea of the trajectory of Egypt's 
democratic development. Those Egyptian organizations most able 
to report on and to influence human rights issues for the 
better are being forced instead to defend themselves against a 
political assault.
    A second part of the broader context--underlining that this 
is not just an Egyptian-American issue--is that your concerns 
about these events in Egypt are being reflected overseas. 
Egypt's neighbor across the Mediterranean--Europe--has been 
intensely interested in the transition over the past year.
    For example, in 10 months of training over 12,000 
Egyptians, IRI was joined by trainers and staff from Serbia, 
Germany, Macedonia, The Netherlands, the Czech Republic, 
Slovakia, and Norway. And since the raids in December, 
condemnation has come from across Europe in statements from the 
European People's Party; from the foreign ministers of Spain, 
Bulgaria, The Netherlands, and Georgia; the Deputy Foreign 
Minister of Poland; and the summoning of Egyptian Ambassadors 
in Slovakia and Belgium.
    The point is that other nations are as concerned as we 
about the assault on civil society in Egypt and what it means 
for the future of the country's democracy.
    A third element that I want to bring to your attention is 
what other authoritarian nations may be learning. Those of us 
on the front lines of helping democrats in Russia, China, 
Zimbabwe, Venezuela, and other authoritarian states fear what 
rulers in those countries are planning as they watch Cairo so 
far interrogate, charge, and confine our citizens on political 
grounds with impunity.
    A fourth element--it would be hard enough to build 
relations with a government divided between conservative and 
extremely conservative Islamists, and a military alternately 
out of country and cowed by the Islamists in a country where 
Copts are being attacked and NGOs are raided. There are 20 
issues more worthwhile, as has been pointed out, for our 
leaders to discuss than NGOs--economics and politics within 
Egypt, the situation with Iran, relations with Israel, events 
in Libya. The list goes on. But Egypt has chosen to make the 
NGO issue the central concern in America, Europe, and 
elsewhere. And the longer this issue goes on, the more 
difficult it becomes to unravel, and the more it poisons any 
new partnership we might be able to form with Cairo.
    So I appreciate your initiative in calling this hearing as 
you consider next steps to resolve this matter. I look forward 
to answering your questions.
    Thank you.
    [The prepared statement of Mr. Craner follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Wollack.

STATEMENT OF MR. KENNETH WOLLACK, PRESIDENT, NATIONAL DEMOCRACY 
                           INSTITUTE

    Mr. Wollack. Madam Chairman, Congressman Berman, and 
members of the committee, thank you for the opportunity to 
testify today about the source of the disagreements between the 
United States and Egypt that have embroiled a group of non-
governmental organizations in a political maelstrom not of our 
own making.
    Egypt is a key leader in the region, and reasons remain for 
a strong partnership between the government and peoples of 
Egypt and the United States. Egypt's democratic transition, 
which was advanced by three successful rounds of parliamentary 
elections, will be important not only for its own people but 
will no doubt influence democratic development far beyond its 
borders.
    NDI has been proud to have played a small role in 
supporting Egyptian efforts in this regard. We recognize that 
this is a very complicated period in the Egyptian transition 
process, and the outcome is not assured. At the same time, we 
remain optimistic about prospects for the country's democratic 
future. For the international community, we have to exercise 
patience and remain engaged.
    As experience has shown elsewhere, overcoming years of 
autocratic rule is not always quick or automatic. This has been 
an extraordinarily difficult and perplexing 7 weeks, since on 
December 29 Egyptian investigative officials, accompanied by 
armed men, entered 17 offices of 10 non-governmental 
organizations and took computers, documents, and money.
    Since then, the situation has regrettably deteriorated 
rapidly and markedly. None of our property has been returned. A 
number of our employees are forbidden to leave the country, 
some have been subjected to hours of interrogation, and 
investigative judges have recommended that charges be brought 
against 15 of our Egypt-based employees--five Americans, four 
Egyptians, three Serbians, two Lebanese, and one Romanian.
    It is our understanding that some 400 Egyptian 
organizations are also under investigation. The charges are 
that we ``received and accepted funds and benefits from a non-
Egyptian organization,'' that being USAID and the Department of 
State, and that we established and operated without a license 
from the Egyptian Government.
    One of the supporting pieces of evidence is that we draft 
the reports that were sent to our Washington office. These, of 
course, were the program reports required of all grantees. Many 
other sensational and false accusations have appeared in the 
media and are recorded in testimony by government officials and 
used as evidence.
    NDI believes our non-partisan activities were actually 
authorized. We fulfilled all of the legal requirements for 
registration through the Ministry of Foreign Affairs in 2005, 
shortly after we opened an office in Cairo. And I was 
personally told by the then-Foreign Minister that our 
registration would be granted in a matter of weeks.
    Clause 6 of the relevant Egyptian law states that if a 
registration application is not formally rejected within 60 
days, it will be considered approved. NDI's application has 
never been rejected. While we are still waiting for formal 
recognition, I believe that we are making some progress. On 
February 13, our renewed registration application was approved 
by the Ministry of Foreign Affairs. It now moves to the 
Ministry of Social Affairs for the issuance of a license.
    We have always been open and transparent, informing 
officials of our activities and updating our paperwork. Not 
once were we asked to cease work or close our office until 
December 29.
    In fact, NDI and IRI were invited by Egyptian authorities 
to witness the country's parliamentary polls for which our 
institutes organized international delegation, with observers 
from more than 19 countries. We have maintained a bank account, 
and its staff members are legally employed and pay their taxes.
    Our non-partisan programs have supported participation in 
the very political process designed by Egyptian authorities and 
approved in last year's national referendum. Since April we 
have conducted some 700 training sessions from more than 13,000 
participants across the country. And more details are included 
in an attached statement, attachment document to my statement.
    These programs have included the sharing of international 
experiences on democratic transitions, working on political 
party development with participants from parties that are now 
represented in the new Parliament, and assisting civil society 
groups conducting election monitoring, civic education, and 
non-partisan border education.
    Egypt Government has said repeatedly that the investigation 
is being conducted by the country's independent judiciary and 
cannot be influenced by the government, yet the actions to date 
from the armed raids and the nature of the interrogations to 
public pronouncements by Egyptian authorities have not 
resembled a normal or fair judicial process.
    While the motivations for the investigation remain unclear, 
one issue may be a conflict over who controls U.S. foreign 
assistance. The Egyptian view is that such assistance should be 
used only for programs and groups sanctioned by the government.
    By providing assistance more directly and widely to support 
the aspirations of the Egyptian-led revolution, the U.S. has 
sought to assist the emergence of a vibrant civil society and 
political parties to help lay the foundation for a functioning 
Egyptian democracy.
    Since NDI's founding nearly 30 years ago, our staff members 
have repeatedly overcome the challenges of working in difficult 
and sometimes hostile environments. But the challenges we have 
faced in Egypt are unprecedented, where many of our staff face 
possible trial, fines, and a prison sentence.
    We have also received many expressions of concern and 
support from friends and partners inside Egypt. They want to 
make sure our staff is safe, want to speak on our behalf, ask 
what else they can do to defend us. We also care deeply for 
their safety and their ability to contribute freely to Egypt's 
democratic process.
    I would like to thank the many Members of Congress, 
including those on this committee and officials in the 
administration who have worked tirelessly to help resolve the 
current crisis. We also appreciate those on the Egyptian side 
who would also want to diffuse tensions over these issues.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Wollack follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Kramer.

STATEMENT OF THE HONORABLE DAVID J. KRAMER, PRESIDENT, FREEDOM 
                             HOUSE

    Mr. Kramer. Madam Chair, Ranking Member Berman, members of 
the committee, thank you very much for holding today's hearing. 
I know for a fact that there are many Egyptians watching this 
hearing today, and the concern and interest that you are 
showing is extremely important. I appreciate that.
    What happened on December 29 constituted an unprecedented 
assault by Egyptian security forces and government agencies on 
international civil society organizations and our local 
counterparts. Not even under Hosni Mubarak did we and our 
partners face such attacks. Nowhere else in the world have any 
of our offices been treated the way they have been and continue 
to be, as they are right now in Egypt.
    Our organizations and staffs of course are the ones in the 
headlines these days, but we can't forget that there are 
hundreds of Egyptian organizations that are facing similar 
pressure and charges, but have no Americans or foreigners on 
their payroll. Some 400 Egyptian organizations have been under 
investigation and face relentless pressure from the government.
    And in seeking a resolution to the current stalemate, it is 
critically important that we not forget about those many 
Egyptians and their organizations that are facing similar 
harassment, persecution, and pressure from the government.
    I, too, as many of you have said, am endlessly impressed by 
the determination and commitment and courage of our Egyptian 
staff members under extraordinarily adverse conditions, and 
want to support their country's transition to democratic rule 
and the fight against these spurious charges.
    Let me state clearly that we do not view this situation as 
a legal matter involving rule of law, nor do 29 Egyptian 
organizations who issued a statement yesterday in Cairo. And if 
I may, I would like to refer to it. They refer to this whole 
harassment against human rights organizations as politically 
motivated.
    They talk about the raids that were conducted as a crime 
for which the law was sacrificed. They talk about even before 
the trial has begun, the Ministry of Justice, other government 
parties, and the two investigating judges have been conducting 
a one-sided trial in the media for the last 5 months, making 
vague accusations against groups and persons via press leaks, 
with the goal of smearing civil society, especially human 
rights organizations, and painting them as collaborators with 
foreign agendas and conspirators against the country's 
stability.
    These organizations say that this is a flagrant violation 
of the law and investigation rules which require investigators 
and others connected to the case to maintain the 
confidentiality of the proceedings and findings.
    They go on to say, of the lies told by the government, 
perhaps the biggest is the claim that the funding of human 
rights groups is political, similar to funding given to 
political parties during elections in the U.S. and elsewhere. 
Yet as is all well known, rights organizations do not support 
one political party over another.
    During elections or at any other time, their activities in 
this field are limited to raising citizens' awareness of the 
political rights without discrimination based on political or 
partisan affiliation, as well as monitoring elections to ensure 
transparency, fairness, and freedom of parties in the process.
    They conclude by saying the unethical conspiring against 
Egyptian civil society is in no way a national objective or in 
the national interest. Countries around the world advance by 
emancipating civil society, not by suppressing it. Parliament 
should make it a priority to achieve this goal by adopting NGO 
law proposed by civil society organizations.
    Madam Chair, we have been fully transparent with Egyptian 
authorities about our activities. We have cooperated fully with 
officials in the Egyptian Government, including when we 
submitted our registration application 3 days before the raids 
were conducted. We have made every effort to conduct our 
activities in line with Egyptian law and in a transparent 
manner.
    We don't fund or support political parties or politicians. 
Instead, we work to strengthen civil society and bolster human 
rights activists. Freedom House and similar organizations are 
in Egypt--and this is critically important--to respond to the 
indigenous demand and interest for the kind of trading and 
expertise that we provide.
    If there were no local interest in what we do, we would not 
be there. There are Egyptians and organizations that want to 
benefit from the kind of support and training that Freedom 
House and other organizations represented here today offer.
    The main accuser, as has been mentioned, is the Minister 
for Planning and International Cooperation--Faiza Abou el-Naga, 
who is a holdover from the Mubarak days. But at the same time, 
the Military Council has created an environment of distrust and 
of attacks against so-called foreign hands, and they cannot be 
absolved of responsibility in this current situation.
    Each day that passes in which our offices remain closed 
only makes the situation worse. We need to be allowed to 
reopen. We need to get our confiscated equipment back. We need 
to be allowed to register with no strings attached. And we need 
to see a state campaign in the media brought to a halt, so that 
people's lives are not put in danger. We cannot be given 
special treatment--``we,'' American organizations--while 
Egyptians are left to fend for themselves.
    There are major implications for the United States. And let 
me close by offering a few suggestions on a way forward, 
because how we respond, as Lorne Craner said, will have an 
impact not just on the situation in Egypt but elsewhere around 
the world.
    The United States cannot certify Egypt under the current 
circumstances, and it seems to me that we need to take a strong 
stand and make it clear to the Egyptian authorities that 
certification is not possible, nor would a waiver be tenable. 
It is, indeed, hard to understand how the United States could 
provide taxpayer assistance to an Egyptian military leadership 
that prevents NGOs from implementing democracy and human rights 
projects supported by the same U.S. taxpayers.
    Beyond that, as some have suggested, we should immediately 
end any relationship with the Ministry for Planning and 
International Cooperation. Minister Abou el-Naga has lost any 
credibility to handle any assistance funds in a constructive or 
an accountable manner and forfeited any right to oversee those 
funds. Moreover, I would recommend an audit of the funds that 
she has overseen, so that we can find out how those monies have 
been spent.
    Senior U.S. officials, including President Obama and on 
down, as well as many Members of Congress, have weighed in with 
authorities in Cairo, so far, unfortunately, without success. 
That leads me to think that, unfortunately, we don't have an 
option but to suspend military aid to the Egyptian authorities, 
so that this current situation does not get worse.
    In closing, let me just say that it has been very 
heartening to see the response we have from people inside 
Egypt, including from those who signed the statement that I 
made mention of. We are there to help provide support to Egypt 
to move in a democratic direction.
    We, of course, cannot want this more than Egyptians do. But 
I do want to say that it is Egyptians whom we want to support 
that are moving in a democratic direction, and we have an 
obligation to continue working with them as they strive for a 
better future for their country.
    Thank you.
    [The prepared statement of Mr. Kramer follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much.
    Ms. Barnathan.

  STATEMENT OF MS. JOYCE BARNATHAN, PRESIDENT, INTERNATIONAL 
                     CENTER FOR JOURNALISTS

    Ms. Barnathan. Chairman Ros-Lehtinen, Congressman Berman, 
and members of the committee, thank you for the opportunity to 
testify today on our distressing situation in Egypt.
    The International Center for Journalists runs programs in 
Egypt--and around the world--that are aimed at accomplishing 
two key goals--raising professional standards and skills.
    Journalists, media managers, and, increasingly, citizen 
journalists worldwide say they benefit from what we have to 
offer, which is practical, hands-on journalism training. We aim 
to marry the best professional standards with the latest 
digital innovations.
    ICFJ is a non-governmental and non-profit journalism 
organization, no more, no less. We do not take political 
positions. We do not fund political activities, including 
protest movements, or support political parties or candidates 
running for Parliament or the Presidency. Of course, the 
journalists we train may cover such events.
    We are not an advocacy group, except to advocate for good 
journalism. For nearly three decades, we have helped 
journalists provide accurate, contextual, responsible reports 
whether on government, business, the arts, or health. We are 
funded mainly through private funds, but we receive about a 
third of our funding from the U.S. Government. We cherish our 
integrity and maintain autonomy in every program. If there are 
strings attached, we aren't interested.
    Our view is that no matter who produces the news, or what 
platform is used to disseminate it, journalists must uphold the 
highest standards. And our role is increasingly important as 
the players and channels for news multiply.
    In this cacophony of information, we arm today's 
journalists--both professional and citizen--with the skills 
needed to provide responsible, ethical coverage, so that 
citizens can make the best decisions in their lives. This is 
the case in Egypt. This is the case everywhere we work.
    For this reason, we are dismayed by recent events. We have 
never faced charges like this anywhere--and we have worked in 
180 countries. We have always been transparent with the 
Egyptian Government about our activities. As recently as 
November, we informed the Ministry of Foreign Affairs about all 
our programs as part of the registration process. Last year, 
our local lawyer told us that to get registered Egyptian law 
required us to open an office and show activity, which we did.
    Now we are faced with indictments that charge five 
individuals--three Americans, who work in the U.S., and two 
Egyptians--with opening an office and sending in funds without 
being registered. The charges falsely claim that funds were 
used for conducting political activities in a manner affecting 
Egypt's sovereignty and national security.
    We are especially concerned about the welfare of the two 
Egyptians who work with us. Our recently hired, young program 
officer, who simply does clerical work, is facing the most 
serious charges of all. Both Egyptians are falsely accused of 
accepting nearly $1 million from us. In fact, they received a 
total of $74,000 to cover salaries, office rent, furniture, and 
laptops.
    The indictment against us says nothing specifically about 
our programs. Right now, we have two U.S. Government-funded 
programs in Egypt. One is an initiative to help citizen 
journalists produce quality local news, and the other program 
helps journalists throughout the region develop multimedia, 
public-service reporting projects.
    We are proud of our programs in Egypt. Journalists we have 
mentored have produced award-winning stories on the 
environment, health, and corruption. We have developed a guide 
to the best practices for blogging and a handbook on how U.S. 
and Arab journalists can improve coverage of one another's 
society. The Egyptian Government has even officially registered 
a National Association of Citizen Journalists that formed as a 
result of our recent program.
    In Egypt, we signed contracts with strong partners for all 
our programs. These partners ranged from the state-run 
newspaper, Al-Ahram, to Ahram Canadian University. The vast 
majority of our trainers are highly regarded Arab journalists, 
and we are very heartened by the strong support we have 
received from many of the journalists we have worked with in 
Egypt and beyond.
    As always, we will refrain from engaging in politics over 
this or any issue. We don't tell governments, political 
parties, or candidates what to do in Egypt, the U.S., or 
anywhere.
    Of foremost concern is our staff in Egypt, while not 
arrested, as you can imagine they are under tremendous duress. 
We want to make sure that any resolution includes the most 
vulnerable people on the ground, and we hope that a resolution 
can be found as quickly as possible.
    Thank you.
    [The prepared statement of Ms. Barnathan follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much. Excellent 
testimony. We thank each and every one of you for being here 
today.
    I wanted to ask you a few questions to anyone who would 
care to answer. Was the crackdown initiated by one person 
within the government? Is it now a state-sanctioned initiative 
in your view?
    Also, some excused the crackdown by saying it was 
spearheaded by holdovers of the Mubarak regime. Do you agree? 
And does this justify the crackdown?
    And, lastly, yesterday the Muslim Brotherhood released a 
statement praising the crackdown, stating that it supported 
their nationalist position, and yet also stated that USAID 
should continue to flow to Egypt unconditionally. What is your 
reaction to this statement? Anyone who would care to make a 
comment.
    Mr. Kramer. Madam Chair, if I may, there is certainly--the 
Ministry for Planning and International Cooperation, and the 
Minister, Faiza Abou el-Naga, has certainly been the most 
public face for the campaign against civil society.
    There are various theories about whether the Military 
Council knew about the raids. Most indications suggest they 
were surprised, but there are clear indications that they were 
able to end the raids on that day. They made a phone call to 
the raiding party at one of our offices, and it put an end to 
the raid, and, accordingly, NDI's office was not sealed. Our 
offices were waxed and sealed.
    To me that suggests that if the Military Council wishes to 
flex its muscles in a positive way, and wishes to bring this 
campaign and these investigations to an end, it can do so. So 
far it has chosen not to do so.
    Faiza Abou el-Naga has been front and center in a number of 
press conferences and public statements. You have seen I think 
the charges that have been leveled against us in which he makes 
some pretty outlandish accusations. And as many Egyptians, as 
well as we all believe, these charges don't stand up under 
scrutiny.
    So I do think that there is one person who has certainly 
been the most public about this, but this isn't about one 
person. This is about a more concerted campaign against civil 
society that is either being condoned by or allowed by the 
military leadership to take place, and it is not healthy for 
Egypt, as many civil society organizations have made clear.
    Thank you.
    Chairman Ros-Lehtinen. Lorne?
    Mr. Craner. I think we can safely said that Faiza Abou el-
Naga started this, but I think it has gotten out of control 
since then. I think she has managed to whip up nationalism. And 
with her lies about our activities, she has managed to convince 
some in the military that we were doing nefarious things. I 
don't think, obviously, that the Brotherhood's buying into this 
is at all helpful.
    I did want to just quote. We have an unofficial 
translation. You ought to ask the State Department for the 
official. But from the Government of Egypt, Ministry of 
Justice, Office of the Investigating Judge, list of prosecution 
evidence.
    Chairman Ros-Lehtinen. We shall do so.
    Mr. Craner. This is Faiza Abou el-Naga talking. She is 
talking about promoting democracy. ``Such issues have always 
been linked to Israeli interest, since the U.S.A. has been and 
is still managing Egyptian-American relations to satisfy 
Israeli interests in the area.'' And then, she goes on to talk 
about funding for democracy-building. She said, ``The U.S. 
could pedal the fact that direct funding was given to American-
Egyptian civil society organizations,'' et cetera, et cetera, 
``to improve its relations with the U.S. Congress, Jewish 
lobbyists, and American public opinion.''
    She continues: ``The U.S.A. employed all of its capacities 
to contain the developments in Egypt and steer them toward 
serving U.S. and Israeli interests for the purpose of thwarting 
the historical chance for Egypt and the Egyptian people by 
creating chaos in order to give time to international and 
regional anti-Egyptian powers to allow for rearrangement with 
post-revolution Egypt,'' including, by the way, we are 
apparently guilty of inciting religious tensions between 
Muslims and Copts. So you get a sense of her rational.
    Chairman Ros-Lehtinen. Thank you. Lorne, let me just go to 
Mr. Wollack a second.
    Mr. Wollack. I would say, too, when you look at the 
judicial proceedings thus far, which began with a number of 
interrogations before the raid on December 29, when they came 
in with AK-47 rifles, they huddled everybody in one room for 
about 6 hours, they refused to issue warrants, they refused to 
identify themselves, and they refused to take inventory for the 
equipment, the cash, and the documents that they seized.
    It was sadly ironic that the cash that was removed from the 
Cairo office was to support the international observer 
delegation that was arriving the next day.
    Then, when you go into looking at the questions that were 
asked during the interrogations, many of these were highly 
political questions. They had very little to do with legal 
issues--questions to the effect that, do you realize, based on 
the charges by government officials, including the Minister, 
that you are depriving the poor of Egypt of development 
assistance through your programs?
    And then, when we look at the press conferences that have 
been held, the individuals that have been charged have not 
received officially yet any charging documents, and yet press 
conferences have been held, ``evidence'' has been revealed. I 
put ``evidence'' in quotes. And the press has been given a 
great deal of information and inflammatory accusations and 
false accusations.
    So when one looks at an impartial and fair judicial 
process, this has been anything but, up until this point.
    Chairman Ros-Lehtinen. Thank you very much. Thank you for 
those questions.
    Mr. Berman is recognized.
    Mr. Berman. Just a few--get the specifics of the current 
situation. No indictments have yet issued, either Americans or 
Egyptian nationals or third country people. Is that correct?
    Mr. Kramer. As far as we know, that is correct.
    Mr. Berman. Right. But none have been served or publicized 
at this point.
    Mr. Kramer. Sorry. Not formally, but through press leaks.
    Mr. Berman. A statement of intention to indict is pretty 
clear.
    Mr. Kramer. Exactly right.
    Mr. Berman. Yes. What is the current status of your offices 
and other facilities in Egypt? Are all your facilities closed? 
What percentage of your U.S., Egyptian, and third country staff 
have not been indicted but are facing these criminal charges? 
Can you----
    Ms. Barnathan. Our office remains closed. We are not--and 
we have two employees on the ground right now who are free to 
operate, but, as I said, under tremendous duress.
    Mr. Kramer. Congressman, our office also remains closed, 
waxed, and sealed. Nothing has been returned that was 
confiscated on December 29. We have five Egyptian staff on the 
ground, four of whom have been mentioned as facing possible 
charges. I am sorry. We also have three others. None of those 
three is in Egypt. One is in Jordan, and two are here in the 
United States.
    Mr. Wollack. We have three offices in Egypt--one in Cairo, 
the second in Alexandria, and the third in Assiut in upper 
Egypt. The Assiut and the Alexandria offices were sealed. The 
Cairo office, those who raided the office left before sealing 
it, so people can come and go into the office, but the office 
is not operating.
    We have 15 people who have been charged--supposedly 
charged, but it is an opaque process--including both local, 
third country nationals, and Americans.
    Mr. Craner. All of our offices remain sealed. We have 14 
people who are being charged--10 are foreign and 4 are 
Egyptian.
    Mr. Berman. In my remaining two, 2\1/2\ minutes, could you 
describe the kinds of things you think would constitute a 
satisfactory solution, and in addition to what has been done up 
until now, and the chairman scheduling this hearing, ways in 
which Congress could be helpful? Actually, Mr. Kramer has made 
a few suggestions on that issue.
    But what would be, given where we are now, a satisfactory 
solution in your mind?
    Mr. Wollack. I would just make two points. First and 
foremost, we care about the safety of our staff members--their 
physical safety, the dangers of arrests, of a trial and 
imprisonment. And so their personal safety is paramount, and 
this includes the Americans, the third country nationals, as 
well as the Egyptians.
    And, second, we have in good faith resubmitted our 
registration. We have been meeting frequently with the Foreign 
Ministry, our lawyers, and our staff, and we are trying to 
seek, again, something we began in 2005--to be legally 
registered in Egypt.
    And so, therefore, we are going through that process once 
again, so hopefully we are working to try--and I think the 
administration has been working to try--to maintain the safety 
of the staff, and secondly to begin about a process that would 
allow us to continue these non-partisan activities and 
legitimate programs to support Egyptian efforts to sustain a 
democratic system in the country.
    Mr. Berman. Anything to add to that, Mr. Craner?
    Mr. Craner. No, I would like my people to be able to leave, 
and I would like to operate in Egypt without being hog-tied.
    Mr. Kramer. Could I just add, dropping of all charges, 
ending of all investigation? Not just against our four 
organizations, but against all Egyptian organizations that have 
this Sword of Damocles hanging over them, and allowing us to 
operate in an unfeddered manner.
    Thank you.
    Mr. Berman. Thank you.
    Chairman Ros-Lehtinen. Thank you very much. Good questions, 
Mr. Berman.
    Mr. Smith, chairman of the Subcommittee on Africa.
    Mr. Smith. Thanks very much, and thank you for your 
extraordinary testimony on behalf of those that you care, and 
we all care so deeply, for.
    Let me just say at the outset, one of the conditions in the 
foreign aid budget for this year is religious freedom. And both 
sides of the aisle, we are all deeply concerned about minority 
religions, especially and including the Coptic Christians.
    I chaired a hearing in July, and we heard from Michele 
Clark, who used to be the OSCE Director for Trafficking, who 
has chronicled--and the protection project at Johns Hopkins, 
who has chronicled, beyond any reasonable doubt, that thousands 
of women, young teenagers, Coptic girls, are abducted and 
forced into Islamic marriages. And I would call on the U.S. 
administration to investigate this, all human rights-concerned 
parties to do so. It is an absolute outrage.
    Now, to the concerns that you have raised so ably today. 
Let me just ask you, since your computers and contacts have 
been confiscated, are there any reports of participants at 
training sessions, for example, or the network of NGOs with 
whom you have worked with being interrogated and arrested? 
Secondly, do you have any information whatsoever as to whether 
or not other people with whom you have networked with, to just 
have free and fair elections, and do election monitoring, have 
been tortured or degraded or treated cruelly, as would be 
defined in the Torture Convention?
    As you know, Egypt is a signatory to the Torture 
Convention. My hope is that that expert treaty body will be 
very vigilant, hopefully sending one of its representatives to 
investigate. Has the Human Rights Council done anything? Has it 
been raised at the Human Rights Council?
    All of your individual members who have been arrested, 
coupled with others who you work with, indigenous Egyptians? 
And has the Security Council done anything either? Have we in 
the United States, or any of the members of the Security 
Council, raised this issue?
    It seems to me that with the Arab League and others, the 
OIC having such influence, particularly on the Human Rights 
Council, that would be a very, very important place. If it has 
not been raised, it ought to be raised immediately on behalf of 
your personnel and those with whom you have worked so well 
with.
    Mr. Craner. Sir, we are very, very careful with our lists 
of trainees, and so I don't think that very much was recovered 
in that raid in terms of the contacts we had had over the 
years. I do know the people who work with us have been 
questioned, but I cannot tell you they have been tortured. And 
no, as far as I know, this has not been raised in any U.N. 
organ.
    Mr. Smith. Would you call on the administration to do so?
    Mr. Craner. I think every effort that can be exerted would 
be helpful.
    Mr. Wollack. I think throughout the interrogations people 
were treated well, although the interrogations went on for 
many, many hours, and oftentimes employees were called back for 
a second and third round of interrogations.
    What was most disturbing was not the treatment of people, 
because they were treated well, but it was the questions that 
were being asked--that these employees somehow were being 
charged with undermining the sovereignty of the country, 
charged with depriving the poor of Egypt of needed development 
assistance.
    So it was the types of questions that were being asked that 
were not particularly relevant to a fair and normal legal 
proceeding, but they were treated quite well.
    Mr. Smith. Was there any difference between how U.S. and 
international personnel were interrogated and locals?
    Mr. Wollack. No.
    Mr. Smith. Okay.
    Mr. Kramer. Congressman Smith, on your point about 
religious freedom, which I think is critically important, civil 
society, as you know, can play a very important role in trying 
to prevent conflict between different religious or ethnic 
groups. And the smothering of civil society is only bound to 
stir up religious conflict in Egypt, or anywhere else for that 
matter.
    Our partners, I, too, am not aware of any who have been 
tortured. The questioning hasn't been the friendliest, though. 
And when reminders are dropped pretty regularly that the people 
being interrogated could be in jail doesn't create a very 
hospitable environment. I, too, am not aware that the HRC or 
the U.N. has taken this up.
    I agree that this would be a very appropriate issue for the 
Human Rights Council. The Security Council, I can't imagine, 
would ever take this up. The Russians and the Chinese would not 
allow it.
    But there is also another mechanism that Freedom House is 
part of, which is the embattled NGO Fund, or the Lifeline Fund, 
where there are 13 governments that provide funding. That is 
also supposed to be an advocacy effort as well, and this is 
something I think that is prime for the NGO Fund to take on.
    Thank you.
    Ms. Barnathan. The people affected are the two individuals 
that I mentioned earlier, and that seems to be the scope of the 
interrogation. As far as we know, none of our participants have 
been interrogated or involved in this.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Smith.
    Mr. Ackerman is recognized.
    Mr. Ackerman. Thank you. I am trying to look at the bigger 
picture, the implications of our relationship and U.S. foreign 
policy and our successes and failures. In the general scheme of 
things, with the size of our relationship with Egypt, you are 
but a very tiny, tiny, tiny piece.
    But I was thinking, if you take a little 10-foot roadblock 
on a 1,000-mile highway, and look at it from a birds-eye view, 
it is really a small piece, but it is a heck of a showstopper. 
That is what we are looking at here.
    I am trying to understand the implications of, with all of 
the aid and assistance that we have provided, with all of the 
help that we have given, why is our image so bad? We used to 
have a joke in part of my community that went something like 
``Israel is the only country in the world that likes us, 
despite the fact that we give them money.''
    You know, I mean, even Scrooge, Ebenezer Scrooge, looked a 
lot more friendly when he was helping, you know, Bob Cratchit. 
You know, why aren't we looking any better to the people in 
Egypt? And I think as politicians we understand what is 
happening here with one political player and others falling in 
line trying to throw red meat to the crowd that has a 
predisposition not to be fond of us, and everybody is trying to 
get to the right or left, depending on your perspective of each 
other, and falling in line and feeding into this thing.
    And then, I started to think about it as I was thinking 
about it, and I said to myself, ``This is happening almost all 
over the world.'' We had a big relationship with a lot of 
countries, financial relationship, including Iran at one point, 
including a lot of other countries, especially with Egypt, 
which gets a lot of our largesse.
    Why is not the good collateral happening? A lot of good 
stuff is happening. A lot of important stuff has happened. We 
have gotten a lot for our investment. But why aren't we liked 
at the same time? And I think part of the answer is the people 
in those countries aren't the beneficiaries of our largesse. 
And, ironically, they are the direct beneficiaries of what you 
are trying to do with your tiny budgets compared to the 
billions of dollars that we have given.
    We have given so much money to the military, but the 
military is seen as the Mubarak regime that has been the 
oppressor. You know, gosh, why didn't we see that before? The 
people don't like us because we are propping up a regime. The 
people in Iran, my God, why are we surprised that we were 
shocked when we are in business with the Shah and he was 
overthrown? We were his ally.
    So it is a natural thing to look at it--to how can we do a 
better job with our help? It is not that we were buying off the 
military and should have been buying off somebody else. We have 
had a good, important relationship that has helped to fight 
terrorism, preserve the peace in an important part of the 
world, and benefitted us tremendously in so many ways.
    Maybe if we reverse the budget and how much we spent where, 
the people would have a direct understanding of what we are 
trying to do. You are the good guys. We have been propping up 
somebody that they didn't like, and yet you are taking the 
brunt of it because you are the point of the spear representing 
us in the eyes and minds of the street. How do we fix that?
    Mr. Kramer. Congressman Ackerman, both the Bush 
administration and the Obama administration have acknowledged 
that the policy pursued by the United States for decades in the 
Middle East--not just in Egypt--where we counted on 
authoritarian regimes without looking at human rights issues or 
promotion of democracy, actually wound up hurting us. It hurt 
our interest, it hurt our reputation, it hurt our standing in 
the region.
    I was in Cairo in December 2010, so right before the 
revolution happened. I was struck by the level of frustration 
among Egyptians, both toward the Mubarak regime but also toward 
the United States. Then, when the uprising occurred, I was 
equally struck that the United States had nothing to do with 
it. What happened in Egypt and in Cairo was not about the 
United States. It also wasn't about Israel, by the way. It was 
about Egypt and the way that the Mubarak government had treated 
its own people.
    What has happened since then is you rightly pointed out 
that the assistance we provided did not go to the people of 
Egypt. It went to a small group that benefitted. And for some 
very good legitimate reasons. I am not suggesting that it was 
wasted money, but to the average Egyptian it didn't have any 
impact.
    What we are seeing now is certain Egyptian politicians 
playing the anti-American card. And as you rightly point out, 
this is not unique to Egypt. We are seeing this in Russia with 
Vladimir Putin playing the anti-American card as he leads up to 
the March 4 election there.
    This is a problem, and we do need to push back on it, I 
would say, aggressively and not let it stand, because if we do 
then certain regimes view that as weakness on our part. And we 
also leave in danger people on the ground with whom we work and 
with whom we try to support.
    Mr. Ackerman. It seems that the world's super power also 
bears the burden of being the world's super scapegoat. And we 
have been puzzled by that, and I think we should be aware that 
there is an inadequacy on our part. I mean, I think, you know, 
if we look at the words of the Scottish poet Robert Burns, who 
said in a very beautiful stanza, ``O would a gift the giftie 
gie us to see ourselves as others see us.''
    We don't understand why people are viewing us in this way 
while we are trying to do the best thing that we see possible 
and maybe we are not.
    Chairman Ros-Lehtinen. Thank you, Mr. Ackerman.
    Mr. Burton, the chairman of the Subcommittee on Europe and 
Eurasia, is recognized.
    Mr. Burton. First of all, I appreciate all of the hard work 
that you folks do. My questions deal with the religious 
intolerance that is taking place. I started reading through my 
notes here, and the elections that took place recently, the 
Freedom and Justice Party, the Muslim Brotherhood, won a great 
many seats. And the Salafist Party won a number of seats. And 
so the majority of the Parliament that has been elected is the 
Muslim Brotherhood or those who have a more radical view of 
Islam.
    And as a result, they are committed, from everything I have 
seen, to Sharia law. And the Coptic Christians in Egypt have 
suffered greatly over the past several years, and I have got 
example after example after example where they have blow up 
churches, killed or injured a couple hundred people, burned 
their houses, cut off a fellow's ear because of something that 
he said or did, just a whole host of things. And they are too 
numerous for me to go into right now.
    And I guess my concern is, under Mubarak and prior to that, 
we had the Camp David Accords where there was peace between 
Egypt and Israel and some stability in that part of the world. 
Now we have more radical elements who believe in Sharia law 
that are obviously at some point in the future going to take 
over that government, in my opinion.
    And I am concerned about what that portends for the future. 
There are between 8 and 12 million Coptic Christians and other 
minorities in Egypt, and I just wonder, is this kind of 
religious persecution going to continue? Is there any chance 
that the new government will be more tolerant? And you can also 
talk about the Camp David Accords, whether or not those will be 
supported, and whether there will be peace between Israel and 
Egypt in the future with the new government.
    Now, I know these are questions that you probably normally 
don't deal with, because you deal with other things regarding 
democracy. But the thing that concerns me about democracy here 
is we got rid of a bad guy in Mubarak. We really don't know 
what we have got yet because of the elections and because they 
are moving toward Sharia law.
    And I would just like to get your assessment on what the 
situation is now and what it looks like in the future, any one 
of you.
    Mr. Wollack. Could I, if I could, Congressman, offer a 
little more hopeful view of the situation.
    Mr. Burton. I am always looking for hope.
    Mr. Wollack. And I think if one looked at the political 
constellation that exists in the Parliament, I think there is 
room for hope. The last Parliamentary elections were in 2010, 
November 2010, in which the ruling party, the NDP, virtually 
swept the Parliament in a fatally flawed election process that 
did not reflect the will of the people.
    Today you have a Parliament of which 30 percent of the 
popular vote went to so-called liberal secular political 
parties, that today have 100 seats in a nearly 500-seat 
assembly. And if somebody would have said that those political 
parties between the Islamist parties and the NDP would secure 
30 percent of the popular vote, and 100 seats in a 498-seat 
assembly, in 2010, that would have been seen as a revolution.
    Secondly, I think the Freedom and Justice Party is not made 
up solely of Muslim Brotherhood adherence. There is a 
percentage that joined that coalition that does not necessarily 
adhere to the Muslim Brotherhood.
    And, third, the Brotherhood and the Freedom and Justice 
Party have sought to seek coalitions with many of those other 
political parties. So I think that there are real opportunities 
when it comes to issues where coalitions have to be formed 
between the Freedom and Justice Party and many of the other 
more liberal secular parties--that there will be grounds for 
cooperation. And certainly that is what the Brotherhood has 
been saying.
    Mr. Burton. You don't anticipate that government will be 
moving toward Sharia law and that there will be more radical 
approaches to governance.
    Mr. Wollack. Well, I think that ultimately in a more open, 
democratic process, people--parties want to be reelected. And 
ultimately they will try to pursue policies that the majority 
of the people want.
    Mr. Burton. I know my time has expired, but that really 
didn't answer my question. I just wanted to get your 
assessment. Do you think that the future Governments of Egypt 
will be governed by those who support and want Sharia law?
    Mr. Wollack. Not necessarily, because of coalitions that 
have to be formed.
    Mr. Burton. Okay. Thanks.
    Chairman Ros-Lehtinen. Thank you, Mr. Burton.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman. And I do want 
to thank our witnesses for their testimony this morning.
    I want to follow up on the--I thought it was a very 
insightful observation by my colleague, Congressman Ackerman, 
with his understanding also of the situation. It seems to me 
that, if I read the supplements of the information here, that 
this Military Council is in coalition with the Islamic 
political parties. And I have a list here of 26 political 
parties. All had representation at this 500-member Parliament.
    We can't even get--you know, we make sure that there are 
only two political parties in our system. We make it so 
difficult that to allow a third party, even in our Presidential 
elections, there is still a question about whether there is 
validity that we should have a third party candidate running 
into this.
    But we have 26 political parties involved here, and I 
happen to agree that the--I think the NGOs have become pawns as 
Egypt struggles to find its soul. Now, what I mean by ``soul'' 
is that after 30 years of Mubarak's authoritarian rule, I think 
we have to understand or appreciate the perception I think 
among many different factions within Egyptian society.
    The so-called elections, as you all know, Mubarak has held 
for the last 30 years, is a sham. A hundred percent of the 
people vote for him because there was only one candidate for 
President. I think we all understand that. And then, for 30 
years, our country has given the aid supposedly to help the 
Egyptian people. And if I am correct, actually all of these 
billions and billions of dollars that we keep giving to the 
Egyptian Government actually went to the benefit of Mubarak and 
his family and his close friends and associates.
    At the same time, we have also established a very close 
working relationship with Egypt's military structure, to the 
extent that we trained them, we provided them with all of the 
equipment and everything that was necessary, and this very 
close relationship.
    At the same time, for 30 years, there is now--what 
happened, Twitter comes along. And because of the high 
unemployment, as I understand it, was the cause that gave rise 
to the Arab Spring situation in Egypt, the fact of the high 
unemployment.
    Correct me if I am wrong on this, in what I have read in 
the observation here, but I also note here the supplement 
saying that both groups--and I assume this is the coalition 
between the Military Council and the 26 political Islamic 
parties--both groups oppose Western concepts of democracy. And 
you come along and here the situation is, ah, they are all pro-
Western, pro-American, and in every way or form.
    What about understanding and appreciating these Egyptian 
people who have been ruled so terribly by Mubarak for the last 
30 years? It seems that this is part of the frustration, as I 
would sense, why we are having this situation now, as we are 
faced with in Egypt.
    And I would--please, if any of you care to comment, if my 
observation has been totally inaccurate and tying along with 
what my friend from New York has just shared with us, the big 
picture. And as you have said, yes, the NGOs and involvement is 
actually a very small part, and actually going into the real 
heart of the matter that we are discussing this morning.
    Mr. Kramer. Sir, if I may, military groups and 
organizations aren't very good at running countries, and the 
sooner Egypt turns power over to a citizen government, 
accountable government, representative government, the better I 
think things will be. That is number one.
    Number two, I don't particularly care whether the Egyptians 
move toward a Western model of democracy. My interest is that 
they respect the fundamental elements of democracy that are 
universal in nature, that aren't necessarily Western.
    And those include freedom of expression, freedom of 
association, freedom of assembly, freedom of religion, freedom 
of the press, independent institutions, rule of law. Those are 
the elements that I think we need to see develop. Whether it is 
based on a Western model or any other model, those are 
fundamental in nature in the universal declaration of human 
rights. And I think that is the criteria that we need to judge 
Egypt's development as it hopefully moves in a more democratic 
direction.
    When Mubarak was there, there was no hope or possibility 
for Egypt to move in a democratic direction. The same was true 
with Ben Ali in Tunisia, with Qaddafi in Libya. The same is 
true----
    Mr. Faleomavaega. Well, I am sorry, because my time is 
running, but this is----
    Mr. Kramer. I am sorry.
    Mr. Faleomavaega [continuing]. This is also what was noted 
by Congressman Ackerman's earlier statement. It is part of our 
legacy of the Cold War efforts that we made that we actually 
went and supported these dictators, including the Shah of Iran. 
We didn't care about democracy, as long as they were pro-
Western. At the height of the Cold War, you are either with us 
or you are with the Soviet Union Bloc. I mean, that was 
basically what was going on.
    And I think this is also what happened as part of the 
situation among the Arab countries. And I think my time is up.
    Chairman Ros-Lehtinen. Thank you very much Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair.
    Chairman Ros-Lehtinen Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Madam Chairman. 
Thank you for your extraordinary leadership of this committee. 
And it is, again, exciting for me personally that all four of 
you are here. Because of my experience, particularly working 
with IRI, I know this can be so mutually beneficial for where 
you are hosted by encouraging people around the world to become 
involved in the democratic process, to learn other cultures.
    It has been so exciting for me out at my visits with IRI to 
Bulgaria and Slovakia that I have had a number of students, I 
have had mayors, I have had government officials, visit here in 
Washington, visit my home state of South Carolina. I have had 
the opportunity to visit a number of times, back in Bratislava 
also, and Sofia and Brno.
    It is just extraordinary what you do and the opportunities 
you provide, and of course to see it evolve from the Cold War 
of the Warsaw Pact to now, countries that are significant and 
very important allies of the United States and friends. And 
that is why it is so disappointing to me that there has been 
these detentions. Of all things, whether it be NDI or IRI, just 
know that what is being done is positive for the people of 
Egypt.
    And so the question I would have for each of you, have any 
of your employees been detained in similar manner in other 
countries where your organizations exist? And we will begin 
with Ms. Barnathan.
    Ms. Barnathan. No.
    Mr. Wilson of South Carolina. Wow.
    Mr. Kramer. No.
    Mr. Wollack. There have been instances in one country in 
Eurasia and one country in Southern Africa. A local employee of 
ours was imprisoned in the Eurasian country for working with 
civil society organizations and served for 6 months. And in 
southern Africa, an employee, for helping civic organizations 
verify the official results through what is called a parallel 
vote tabulation, was detained for nearly a week and 
interrogated. Those were the only two incidences before this, 
but that certainly was not on the scale of what is happening in 
Egypt.
    Mr. Craner. No, never had an office raided over 30 years, 
never had people hauled in for questioning like this, never had 
people on a no fly list, and never had people charged for a 
trial.
    Mr. Wilson of South Carolina. And that is startling 
information you have just provided, how tragically unique this 
is. For each of you, what kind of messages would be sent within 
Egypt and abroad if persecution of domestic and foreign NGOs 
continue?
    Mr. Craner. If it continues without any consequence, it is 
open season, I think, on all of our organizations in places 
like China and Russia and Ukraine and Zimbabwe and Venezuela, 
and many other places around the world, on those who advocate 
for democracy.
    Mr. Kramer. Can I just add, folks elsewhere around--or 
governments elsewhere around the world are watching this very 
closely. And they are wondering if Egypt, a country that gets 
such a significant amount of money, assistance from the United 
States, can get away with this kind of behavior and treatment, 
then I am sure they are calculating they can, too. And so how 
we respond to this is critically important.
    Ms. Barnathan. All I can say is right now it clearly has a 
chilling effect.
    Mr. Wilson of South Carolina. And those of us in Congress 
also have a personal interest in that it is the son of our 
former colleague Ray LaHood, who so many of us have such a high 
regard for, and I just know the LaHood family has only the best 
interest for the people of Egypt. I can't imagine.
    Mr. Kramer, your written testimony discusses the fact that 
the Supreme Council of the Armed Forces aimed their oppressive 
tactics toward the most liberal political forces in civil 
society. Can you discuss which of those tactics have affected 
the party's ability to participate successfully in the 
electoral process?
    Mr. Kramer. Sure. There have been restrictions imposed on 
the more liberal-minded candidates for the parliamentary 
elections or who might even be thinking about running for the 
Presidential election coming up. And what worries me is that we 
have seen a situation where the Military Council has 
neutralized the more liberal moderate parties, leaving what I 
would argue is a false choice between them, the military, 
representing stability and security, versus the more extremist 
parties.
    And I don't think we should--we should try to avoid falling 
into a trap that that is the only future that Egypt holds. So 
there has been--the pressure has been applied much more 
strongly against the more liberal-minded parties.
    Mr. Wilson of South Carolina. And as you conclude, that is 
sad, too, because the military has a reputation, and the people 
who serve in the military, a reputation of being professionals.
    Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Wilson.
    Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Oh, sorry. Let us give the gentleman 
an opportunity.
    Mr. Connolly. I would yield, certainly.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Wollack. I would just like to make one comment with 
regard to your question, Congressman. And undoubtedly there 
could be negative consequences in a number of countries. But, 
again, something Lorne said earlier, we have received an 
outpouring of support from government officials, political 
party leaders, civic activists, all around the world.
    And one such endorsement came from a very interesting 
source. A government that has not always been receptive to 
outside assistance sent a letter to me 2 weeks ago noting NDI's 
excellent reputation and rich experience in the field of 
election monitoring and the promotion of democracy, and invited 
us to observe their upcoming elections.
    So in some places people have rallied around the work of 
our organizations, and so we are seeing sort of a mixed 
reaction to what has taken place.
    Mr. Berman. Was that Venezuela?
    Mr. Wollack. No.
    Chairman Ros-Lehtinen. Thank you. Thank you very much. So 
Mr. Connolly is now recognized.
    Mr. Connolly. Thank you, Madam Chairman. And, again, 
welcome to our panel. Let me ask Mr. Wollack and Mr. Craner 
first, I said in my brief opening remarks somebody made a 
decision consciously to do this. This was not an accident. They 
didn't stumble into it.
    And I would be interested in your views, having been, both 
of you, representing organizations that have been in Egypt for 
awhile, I would assume, why? What is going on here? Is this 
purely domestic politics in Egypt? Mr. Craner?
    Mr. Craner. Every Egypt analyst I talk to has a different 
answer. I think there is a couple of things going on here. I 
think there was an amount of money withdrawn from Faiza Abou 
el-Naga's check that she had gotten annually for 10 years with 
very little oversight. That was given to us and NDI in 2003. It 
was put back into her account in 2009. And then, with the 
elections coming up, it was taken back out of her account. So I 
think that is one of the issues she is having.
    I don't want to personify this, but clearly she is a ring 
leader. But I think it has gone way beyond her, and now you 
have--the military will not fix this, the Brotherhood has 
expressed support for her, so now it has become a much bigger 
problem. But I do think she started it in the beginning, and I 
read earlier some of her statements to the judge about her 
outlook on the world.
    I have to question, given the chairman's thought about 
withdrawing money from any ministry she heads, if this is the 
kind of person you want receiving hundreds of millions of U.S. 
taxpayer dollars.
    Mr. Connolly. Mr. Wollack?
    Mr. Wollack. I have to believe that it began over this 
notion of who controls U.S. assistance. And I think that for 
the 6 years in which we had been operating in Cairo, carrying 
out programs, communicating with the Egyptian authorities, 
including state security which we would meet periodically, 
nobody ever said, ``What you are doing is wrong.'' What they 
said was, ``The approval of your registration application is 
forthcoming, it is pending, it will happen soon.''
    The only criticism we had received last year was in a 
meeting with the Egyptian authorities in which they said we are 
to tell you that you are not supposed to work so hard, but you 
are doing important work. And so there were many friends in the 
Government of Egypt who knew what we were doing.
    Our institute submitted written documents to them detailing 
all of the activities and all of the programs that we are 
conducting, demonstrating that these were non-partisan 
activities, and, ironically, supporting the very process that 
they had designed.
    I think, however, because of the sums that were probably 
larger than they were in the previous years, that this notion 
of who controlled U.S. money going into the country reached a 
level in which some people in the government felt that they had 
to intervene to establish their control.
    Mr. Connolly. It reminds of the expression, you know, when 
they say it is not about the money, it is always about the 
money.
    If I can ask one more question of you to in particular, and 
I wish I had more time to engage the other members of the 
panel, and maybe they would like to comment. But pivoting to a 
more political science question, particularly for you two, one 
of the concerns sometimes about U.S. foreign policy is that we 
align with a particular strong leader for various reasons.
    Let us take the Shah of Iran. He was going to be our 
surrogate in the Persian Gulf. He was going to be a stalwart 
against Soviet encroachment. And, yes, we had to turn a blind 
eye to certain civil liberty niceties, but, you know--but, as a 
result, we acquiesced in turning--no new political space 
created, and what happens after him.
    And it looks like here we are again in Egypt, post-Mubarak, 
critical for Camp David, critical for Middle East peace 
process, critical ally, military alliance, and so forth, but 
post-Mubarak we now face this chaotic space, because we didn't 
sort of tend to the store a little more carefully, delicate 
though that is.
    Just wondering from your respective vantage points, how far 
is that critique?
    Mr. Craner. Extremely fair. I think in a sense history 
repeated itself. In Egypt, I think the government decided to go 
after the more liberal middle, and then they were able to say 
to us, ``Look who is coming, if not me.'' We weren't able to 
work as we would have liked to have done with that middle, and 
this is what you see.
    I think the question moving forward is, are we going to be 
able to do that? And are there going to be future fair 
elections in Egypt where those people can compete?
    Mr. Wollack. I think that there was a time where U.S. 
policy pursued the issues the way you describe them, 
Congressman. I think that there were two important events, 
though, that took place. The first was the snap elections in 
the Philippines in 1986, and then the presidential plebiscite 
in Chile in 1988.
    And there I think a realization came about that the two 
extremes--Marcos and the Communist insurgencies, Pinochet and 
the Communist insurgency in Chile--had a symbiotic 
relationship, and they both needed each other and they drew 
strength from each other. And the democratic middle, from 
conservative to left, were squeezed out in that process.
    But once the political system opened, and allowed for that 
broad democratic center to emerge, it provided some hope for 
stability for the people of those countries. And so, therefore, 
the notion that an authoritarian ruler provided stability is 
short sighted. They always provide stability until stability 
ends. And those two events, I think, changed a lot of minds--
that there was something in the middle between these two 
extremes.
    Mr. Connolly. I thank the chair.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it very 
much. Thanks for calling this very important hearing, and I 
want to thank, of course, the presenters for doing an 
outstanding job. Thank you for your public service. And also, 
we have a better appreciation of your staffs, what they do 
around the world to make the world a better place, the risks 
that they take. So please thank them for me.
    The crisis in Egypt has hit home with me because my former 
communications director, John Tomaszewski, is over there. He is 
one of the 16 Americans. I am outraged and have spoken to the 
Ambassador about this, at least a couple times, expressing my 
alarm. So I do have a couple questions.
    Please tell me what you think we can do to not only protect 
these staffers but enhance the ability of the NGOs to operate 
freely and safely. What can we do to ensure that their 
activities will not be constrained by the current or 
transitional government? For the entire panel.
    Mr. Craner. I have said a couple of times, if the Egyptians 
are able to do this without consequence, clearly that is going 
to be bad for my staff, including JT. And it is not going to be 
good for my programming.
    I am not going to talk about cutting off military and all 
that, but I do--again, I do like the chairman's idea of 
redirecting assistance, should we continue it; and, secondly, I 
would add auditing what has already gone through would be 
viewed in Egypt as a price they are paying.
    Mr. Bilirakis. Please.
    Mr. Kramer. Congressman, I mentioned earlier we need to 
have these investigations closed down. We need to have the 
charges dropped, even though they haven't been formally leveled 
against us. We need to be allowed to register without any 
strings attached.
    And we need to be able to engage with Egyptians who want to 
engage with us. That is why we are there--because there is 
local interest and demand for the kind of support, training, 
and advice that we provide, so that none of them worries that 
they might wind up in jail because they are associated with us.
    Mr. Bilirakis. Okay. Thank you. Next question, I have 
spoken out, again, about the plight of the Coptic Christians 
and the heightened persecution that they have been facing. Can 
you say specifically if your groups were working to help the 
plight of the Coptics? If so, do you believe you were targeted 
because of your assistance?
    Mr. Wollack. We were not involved in those programs, but 
there is an interesting anecdote about this. One of the pieces 
of evidence that has been released is that--and this does not 
have to do with any of these groups--that photographs were 
taken of churches and mosques, and so this was evidence that 
somebody was trying to divide the country between Muslims and 
Christians.
    In fact, the pictures that they referred to were pictures 
from another organization that used them in their religious 
tolerance programs in the country, showing that there is a long 
history in Egypt of religious tolerance. They show slides of 
churches and mosques that are located nearby. That was the 
purpose of those pictures, and yet in the release of the 
evidence they tried to portray them in some nefarious manner.
    Also, maps have been released claiming that we have divided 
the country in different parts, when in fact those maps were 
the electoral maps showing the three stages of the Egyptian 
election process. And these were not maps that were produced by 
our organizations. These were maps that were produced by the 
High Election Commission.
    Mr. Bilirakis. Anyone else? Please.
    Mr. Kramer. I don't think we were targeted because of any 
work we do with the Coptic community. But certainly civil 
society can play a critical role in trying to facilitate 
dialogue between the Muslim community and the Coptic community.
    And whether our organizations do that directly or not, 
civil society in Egypt, there are a number of organizations who 
are focused on trying to promote better understanding and 
better dialogue, so that we don't see the kind of outbreak of 
violence that we saw last fall.
    Mr. Bilirakis. Thank you.
    Mr. Craner. Well, I don't think like David that we were 
targeted because of the work we do, because of work we would 
have done with Copts, but I do think we are getting blamed in 
part for religious strife in Egypt, ironically.
    Mr. Bilirakis. Yes, please.
    Ms. Barnathan. Similarly, I don't think that is an issue 
that we deal with. We are a journalism training group. I can 
say that we have a wide variety of participants who are in our 
programs, but this is--we have nothing to do with that issue in 
particular.
    Mr. Bilirakis. Okay. Well, thank you very much, and I yield 
back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Bilirakis.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade.
    Mr. Sherman. Just about all of the mainstream questions 
have been asked, so I am going to go a bit outside the 
mainstream and focus on, why are we giving aid to Egypt, 
particularly to the Egyptian military?
    Now, it is said that this is some sort of obligation of the 
United States out of Camp David, but I believe you gentlemen 
are as dedicated to the rule of law in the United States as you 
are to the rule of law abroad. Are any of you aware of any 
treaty ratified by the Senate that commits us to spend over $1 
billion a year in aid to the Egyptian military? I assume there 
is not.
    And so the Egyptians may believe that somehow they have a 
right, never existed under U.S. law, to tax the people in my 
district, and others, for the benefit of their military. Even 
if that were true, it may have been terminated by this latest 
outrage.
    The Egyptian army is not always a force for good in the 
world. Does anybody have a comment on what would happen if it 
received, say, about $1.3 billion less from the United States? 
Mr. Craner? I realize you focus here on democracy, and the rule 
of law, and there are other aspects to this as well.
    Mr. Craner. I think one of the things we need to recognize 
is we had a partner in Egypt, and he is gone. And the 
partnership was based, not unlike some--you know, as some 
people have noted here, we have had with other countries.
    So our policy was based on having that particular 
partnership, and I think that using old templates to guide our 
new relationship may not work for the very reasons Mr. Ackerman 
cited. They have not earned us gratitude in Egypt, neither for 
our military nor our civilian ESF assistance.
    Mr. Sherman. Now, if we were to cut the military aid, is 
money fungible and that cost would be spread over the entire 
cost of the Egyptian Government? And would this pretty much be 
a reduction in the resources available exclusively in the 
military? Does anyone here have enough insight into the current 
opaque Egyptian Government to see what the effect would be on 
its various ministries?
    Mr. Kramer. Congressman, the $1.3 billion, as I understand 
it, constitutes about 25 percent of Egypt's military budget. So 
it is a significant sum of money.
    Mr. Sherman. Yes.
    Mr. Kramer. I will be honest with you--and I am the one 
perhaps who has been most vocal and outspoken about suspending 
aid in light of the situation--I would not be issuing such a 
call if there weren't this attack on civil society. I would say 
that Egypt is critically important for what happens in the 
region, in the Arab world, the relationship with Israel, and 
for the United States.
    We all--and this is why the charges against us are so 
absurd--we want to see Egypt succeed. We want to see----
    Mr. Sherman. I think we all want to see Egypt succeed. I 
just don't know whether giving $1.3 billion to their military 
enhances the chance of that success. The military's sole 
actions over the last decade have been on the streets of Cairo 
and other Egyptian cities, not always for good.
    It is hard for me to identify what I want the Egyptian army 
to be able to do that they need $1.3 billion of U.S. taxpayer 
money to do. Does anybody else have a task, an idea, a reason 
that a reduction in the capabilities of the Egyptian army would 
be harmful?
    Mr. Kramer. Well, I would just say I think one thing they 
could do, and hopefully they will move in this direction, which 
is getting out of the business of running the country. 
Militaries aren't good at running countries, and the Egyptian 
military----
    Mr. Sherman. I am not at all sure that the $1.3 billion 
pushes them in the right or the wrong direction on that, 
although you could say that they run economic enterprises for 
the purpose not only of lining their own pockets perhaps but 
also of taking care of the military.
    So I would hate to think that we are giving them $1.3 
billion because otherwise they would go get it from corruption. 
But other than that, I haven't heard anybody in the room come 
up with a reason why that $1.3 billion is helping the United 
States.
    I yield back. But I think this takes a lot more thought 
than what we can give it in 5 minutes.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Sherman. 
Excellent question.
    Mr. Royce, chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Royce. Thank you, Madam Chair, very much for holding 
this hearing. I want to ask a question of Mr. Craner.
    We often hear the leaders of the Brotherhood movement in 
Egypt argue that they are no different than the ruling party, 
the AKP, in Turkey. But Turkey is a far different country than 
Egypt. We had a columnist last week point out that the AKP 
inherited a situation where Western reforms had been instituted 
in the 1920s in Turkey, and we are going to see I guess how 
much longer those reforms last in Turkey.
    But, you have a situation there where the military and the 
press and the judiciary have been checks against the more 
radical Islamist leanings of the AKP. And in the Arab world you 
have a situation where these checks and balances are largely 
absent.
    And so you don't have those balances; you don't have the 
prerequisites for engendering economic success and economic 
growth. And without those checks, and without a stronger civil 
society, the question is, will we be in a situation where we 
see Islamist parties make certain argument to the voters about 
their intentions? But then, once they are in government, see 
them sort of morph into the type of governance that we have 
seen in Gaza, or the types of governing that we have seen in 
Iran? Is there that risk? Let me just get your perspective on 
it.
    Mr. Craner. I think you listed a couple of reasons why the 
Islamist government in Turkey has governed relatively well, 
though you also noted some of the freedoms they have cut back 
on. One thing you didn't mention that I also think was 
important was the magnet of the EU, and that especially over 
the last 10 years a lot of their laws and practices have been 
changed out of a desire to get into the EU.
    You do not find that in Egypt. You don't find any of the 
things you were talking about about their founding, about the 
original ideas behind how the country would be ruled. And you 
certainly don't find an EU for the Egyptians to wish to get 
into.
    So it remains to be seen how they will govern the country, 
but none of the elements you are talking about exist. I repeat 
what I said before that if there are not--if we do not push 
very, very hard for future elections in Egypt, what you are 
talking about, the possibility of it going badly, it goes much 
higher.
    Mr. Royce. I have another concern, and that goes to the 
issue that people say U.S. aid to Egypt is going to be 
leverage. It will be leverage for us to move things forward. 
But in the budget released this week, the administration 
proposed another $770 million for something called the Middle 
East Incentive Fund.
    We don't have a lot of details on this, but it essentially 
seems to be cash to encourage reforms. Is it really the case 
that we need to place money in front of these regimes, in front 
of these governments? Is that the takeaway from this? Because I 
have got sort of the opposite observation, but I will ask you 
for your thought on this.
    Mr. Craner. I think that is a very good question. I think 
in this case, with Egypt, if our current level of aid to them 
is insufficient to work into their calculations about 16 
Americans, you have to ask if on issues that are much, much 
bigger, which have been raised at this hearing this morning, 
whether our assistance would then provide sufficient leverage.
    Mr. Royce. And, lastly, about the Copts, I met recently--I 
have had a series of meetings with Copts. I see the U.S. 
Commission on International Religious Freedom has recommended 
that Egypt be put on the Country of Particular Concern List 
because of the religious--well, it goes mostly to the Salafists 
and the type of pain that they are inflicting on the Coptic 
Christian community.
    I just wanted to ask you, what has been the engagement on 
this issue by the administration?
    Mr. Craner. I can't speak to the administration, what they 
have done. I can tell you that the Copts in Egypt are a lot 
more fearful than they were under Mubarak, and they were 
fearful at that time.
    Mr. Royce. My time has expired, Madam Chair. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Royce, for 
those questions.
    Mr. Royce. Thank you, Mr. Craner.
    Chairman Ros-Lehtinen. Mr. Meeks, the ranking member on the 
Subcommittee on Europe and Eurasia.
    Mr. Meeks. Thank you, Madam Chair. First, let me thank all 
of you for your testimony. I was in my office trying to do some 
other things, but got riveted to listening to your answering 
questions and your statements and decided that I had a need to 
come down and just make some further inquiries.
    But I want to say at the outset, the work that NDI, IRI, 
and Freedom House is doing in helping democracy, in helping 
government and institutions stand on its feet, you know, you 
all need to be applauded for that. And the work that you do I 
think is just so valuable to all of us as this globe gets as 
small as it is getting. So I want to thank you.
    And in listening, the first thing I heard Mr. Sherman--some 
of Mr. Sherman's questions to you in regards to the amount of 
money that we give, and giving to the military, et cetera. And 
I don't know if I missed it or not, but my first question would 
be, what happens if we didn't give? I mean, and I hear--and I 
have heard most say that we shouldn't cut off aid, et cetera. 
And I don't believe that we should either.
    But just to answer the question, what kind--you know, what 
do you think would take place if we did cut off aid? Would that 
help us or hurt us? And how so?
    Mr. Kramer. Congressman Meeks, I would--the only reason I 
am arguing for suspension--and I would use the word 
``suspension,'' to put it on hold until the current situation 
is fixed--the only reason I am suggesting that is because of 
the attack that we are seeing against civil society, including 
against our organizations, but against many Egyptian 
organizations.
    I am, frankly, not in a position to say whether the U.S. 
should continue the $1.3 billion in assistance to the military 
or not. As an observer, I would be--unless there was a reason 
beyond the civil society issue that we have been talking about, 
I would be mindful of what the implications could be of such a 
step and the reaction that we could see from the military, if 
we did not have something that we were asking for in return.
    I am suggesting that this is the price to be paid for 
treating civil society organizations, including those of our 
own organizations, the way that they have been.
    Mr. Meeks. Part of my--and I don't know whether--I know a 
lot of our money is military, but it seems to me, from what I 
have heard, their institutions are weakening, because even--and 
maybe you could tell me--I know when you were--there were two 
investigative judges in their judicial system who seemed to 
be--made political statements to the press, for example, 
showing that there is no independency between the judicial 
system and the politics weakening the institutions.
    And I don't know, suspending money, cutting off money, does 
that further weaken the institutions, or what we can do to 
further engage to strengthen institutions? Because democracy is 
messy. I mean, they have had elections. I agree that we need to 
make sure that there continue to be elections.
    But can you--about their institutions, judicial in 
particular, what is your thoughts on that?
    Mr. Craner. You know I used to work for Colin Powell. I was 
looking at his old autobiography the other night, and I ran 
across something. He was talking about Iran. He had been a 
colonel who visited Iran in 1979, and he said, ``All our 
investment in an individual, rather than in the country, came 
to naught. When the Shah fell, our Iran policy fell with him. 
All of the billions we had spent there only exacerbated 
conditions and contributed to the rise of the fundamentalist 
regime implacably opposed to us.''
    I mentioned before that our policy in Egypt was similar in 
that it was based on a person. And the policy being based on a 
person, I think the aid decisions probably flowed from them. 
And without arguing for lessening money or increasing money, or 
whatever, to Egypt, I don't think a review of the money that is 
going to Egypt would be misplaced, given that we will have to 
have a different policy because there is a new--not only a new 
government, a new type of government in Egypt. But a review of 
the type you are talking about would not be out of place.
    Mr. Ackerman raised, why are people so essentially 
ungrateful in Egypt? And the answer is, because they never saw 
any of the money. It was going to the military, and it was 
going through Faiza Abou el-Naga's international cooperation 
ministry. When they do see the money, as Africans have with 
HIV/AIDS money, thanks to Presidents Clinton and Bush and 
Obama, then they think much more highly of the U.S. And maybe 
because our policy is changing that should occasion a review of 
our aid to Egypt.
    Mr. Wollack. I would say, Congressman, that when you have 
one center of power in a country, whether it is in Egypt or any 
other country, decisions are made between officials of that 
center of power and our Government in a more democratic and 
more open Egypt. There is already the emergence of other 
centers of power in the country, and this is why it is a very 
complicated period in the transition process.
    You have a Parliament now that was elected and reflects the 
will of the people. You will have a President being elected at 
the end of May. And so today you will have a military 
relationship that I assume will continue because of certain 
interests. You will have a Parliament that will have enhanced 
powers; it will no longer be a rubber stamp Parliament. And you 
will have a President and a Cabinet.
    And so, therefore, I think all of the issues on aid will be 
debated and discussed by these varied centers, different 
centers of power. And I think it will influence the type of 
assistance, and it complicates, obviously, the relationship. 
Sometimes it is easier to deal with one center of power, but 
ultimately I think it will reflect the views of the people.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Meeks.
    Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair, for calling this 
hearing. I am going to ask a simple question. I would like a 
yes or no.
    I understand there is complexities, we are not sure of the 
trajectory, depends on certain--changing of fluid 
circumstances. Should we suspend aid to the Egyptians? Yes or 
no.
    Mr. Kramer. If they don't resolve the current situation, 
yes. Yes.
    Mr. Fortenberry. Everybody, please.
    Ms. Barnathan. We are an organization that helps 
journalists. We tell them to be fair and balanced. We tell them 
not to make political statements, and that is in our DNA is 
just not to take political sides, whether here or in Egypt.
    Mr. Fortenberry. I understand. Here is the problem----
    Ms. Barnathan. This is not something we would comment on.
    Mr. Fortenberry [continuing]. We have a decision to make 
that could potentially benefit you, yes or no. So we have to 
make a decision, yes or no, not depending upon fluid 
circumstances and all of that.
    Mr. Wollack. We have been greatly appreciative of efforts, 
both public and private, to resolve these issues. And hopefully 
those efforts can continue. But as an organization that is 
dedicated to democracy and human rights overseas, we have 
avoided taking a position on U.S. legislation in specific. So, 
you know----
    Mr. Fortenberry. All right. Let me get to the next----
    Mr. Wollack  [continuing]. We won't take a position on 
those specific issues.
    Mr. Craner. And my board has asked the same of me.
    Mr. Fortenberry. All right. All right. I figured I had put 
you in an--all of you in an unworkable position. I may have 
answered the same.
    Let me point to you a potential conspiracy theory here in 
regards to this outrageous detention of Americans who are 
actually there to try to simply help the Egyptian people, that 
it might lead to the suspension of American aid, which then 
gives those who have a decided preference for undoing the 
Israeli-Egyptian Peace Treaty a context for doing so, in that 
the United States is no longer living up to its obligation.
    Would you place some credibility in that type of theory?
    Mr. Craner. I think the way this started I would not. I 
would not----
    Mr. Fortenberry. It is too random?
    Mr. Craner. Yes. It is----
    Mr. Fortenberry. Well, that is inconsistent, though, with 
what Mr. Connolly was suggesting, that this just didn't happen 
by somebody's outage, that there seems to be forethought and 
planning.
    Mr. Craner. Well, I think it started over money, but it was 
much smaller amounts of money. And I think it has gotten much, 
much bigger. But I wouldn't buy that theory, that it started 
because of that reason.
    Mr. Fortenberry. Will it then be used, though, for those 
purposes? Will the incident then be used by those who may have 
such considerations in mind?
    Mr. Craner. If somebody would start a war for $1.3 billion, 
they would probably start it for a lot less. That is not much 
money to start a war over.
    Mr. Fortenberry. Well, you see the dilemma with the aid, 
and I have been one who has been firm in advocating for the 
continuance of Egyptian aid up to this point, because it always 
occurred to me that if you--there was tremendous sacrifice on 
both sides that went--on three sides--the Israeli, the 
Egyptian, and the United States--to get a peace treaty in order 
that has held. It has been sort of a cold peace, but it has 
held.
    So to let go of the hand of friendship of the Egyptians, at 
certain points a few years when this was more dynamically being 
debated, seemed to me to be imprudent for the reasons that you 
want to work through the periods of transition and give rise to 
some new, emerging stability that is rooted in human rights.
    And without our ability to leverage anything in that 
regard, you may end up with worsening consequences, such as the 
unraveling of a peace treaty. But now here we are, and can you 
condone, as you are suggesting, Mr. Kramer, by--can you in 
effect condone the behavior by continuing the current status of 
the relationship?
    Mr. Kramer. Well, Congressman, if I could, we have--by 
``we,'' the United States, the President of the United States, 
the Secretary of State, Secretary of Defense, Chairman of the 
Joint Chiefs of Staff, the U.S. Ambassador, have done 
everything they can to try to persuade their Egyptian 
counterparts that this course they are on with civil society is 
a mistake.
    The reason I am suggesting that we look at suspension of 
military aid--and I want to be clear, military aid--is because 
I fear whoever is making these decisions in Egypt believes 
there is not a price for the actions we are taking.
    Mr. Fortenberry. Well, you may be interested, a high-
ranking military delegation was in the United States a week or 
2 ago. We were trying to meet with them, as I normally do each 
year. Apparently, they got up and left town pretty quickly, 
because their reception here was that cold, that rugged. So 
there is very strong sentiment here that this behavior cannot 
be gone, cannot be condoned in some sort of passive way by 
continuing the relationship as normal.
    With that, though, there come complexities here that go 
beyond just reacting to this tragic circumstance and this deep 
injustice that has been inflicted upon Americans that impact 
the geopolitical situation that has been held onto for 30 
years.
    Chairman Ros-Lehtinen. Thank you, Mr. Fortenberry.
    Mr. Fortenberry. Thank you.
    Chairman Ros-Lehtinen. Our former committee colleague, Ms. 
Jackson Lee, joins us today, and I ask unanimous consent that 
she be allowed to question our presenters. Ms. Jackson Lee, 5 
minutes.
    Ms. Jackson Lee. Madam Chair, I thank you for your 
courtesy, and that of the ranking member and members of this 
committee, and to the members that have made their 
presentation. Thank you very much for long-standing service. I 
have seen you in places throughout the continent of Africa, and 
it has been a valuable contribution to democracy.
    First, I would like to just ask Ms. Barnathan about, how 
vigorous is the Egyptian Press Corps or the journalist 
community in Egypt? And are they writing about this story, of 
the incarceration of foreign nationals?
    Ms. Barnathan. I would say that Freedom House does a huge 
job of looking at the state of the Egyptian media, and they do 
lots of studies on this in particular. So you might want to 
direct your question to him.
    But I will say that there are different types of media in 
play in Egypt right now. We have the state-run media, we have 
the privately-run media, and we have citizen journalism and the 
whole internet----
    Ms. Jackson Lee. So they are vigorously--there is a media--
--
    Ms. Barnathan. There is a vigorous media.
    Ms. Jackson Lee [continuing]. Body politicking. Have you 
any knowledge of whether they are reporting on this incident 
publicly?
    Ms. Barnathan. Oh, they certainly are, and there are a 
diversity of voices, but----
    Ms. Jackson Lee. They are.
    Ms. Barnathan [continuing]. We think that in Egypt the 
strongest voice is probably being heard by the state-run media.
    Ms. Jackson Lee. Thank you.
    Let me--to the gentlemen in particular who have 
representatives from their organization, let me indicate to you 
our great concern. And I am going to ask the question, are they 
in good health? Is there anything, aside from the negotiations 
that we are involved in, that we should be concerned about? Or 
not concerned about, because I know that will be a private 
matter, but that we should be dealing with in terms of their 
status? Both gentlemen.
    Mr. Wollack. From our perspective, the staff is in good 
health. I will say that they have a range of emotions at any 
given moment, at any given hour in a given day. But they are I 
think very courageous. They are very determined. They know they 
have done nothing wrong, and so they are committed to defend 
themselves and to maintain the relationships with thousands of 
Egyptians that they have developed over the past 6 years.
    Ms. Jackson Lee. Okay. Mr. Craner?
    Mr. Craner. I think the most important thing, the most 
important encouragement for all of them, is what you have done, 
what the Congress has done, and what the administration is 
doing. They feel a great deal of backing. And, therefore, they 
feel that this will be resolved favorably.
    Ms. Jackson Lee. I am going to say a few words, and then 
yield to you for an answer. First of all, I feel a great deal 
of pain for many of us who have engaged with Egypt. Beyond the 
very positive relationship with Israel, I feel a great deal of 
pain. I won't characterize it as anger, but dismay, 
disappointment, sadness.
    I, too, spoke to the Egyptian Ambassador because many of 
our friends are there, from staff members to family members of 
Cabinet members, and we want to be sensitive to that. We know 
that they raided non-foreign but Egyptian organizations, NGOs, 
some 400. They are under pressure.
    So, frankly, this makes--it is very difficult for me, but I 
do call for the suspension of funds. I think it is very good to 
isolate those as to military funds.
    But what I would ask is you have said it over and over 
again, but I would ask--I would like to go to each of the three 
gentlemen for a succinct, pointed, immediate response. We have 
spoken to the Ambassador. He says that he is conveying his 
words to whatever the government is. I am looking for a 
positive response.
    The President has said, as early as February 2011, we want 
to see the transition to be democratic and fair and just. I am 
concerned that we are in the worst collapse that we could ever 
see for Egypt that had the greatest potential because of the 
great exposure of their military to the U.S. exchange that we 
have had with them for a number of years.
    So we are stymied, and I don't like being stymied, not 
because we are large, but because our values are such that we 
believe in democracy.
    So, gentlemen, if you would quickly say one pointed thing 
that you think that we should leave this hearing with and on 
our mind that we could be doing. Mr. Craner?
    Mr. Craner. If there is something between the President and 
Secretary of State, Secretary of Defense, et cetera, calling 
and suspending assistance, as has been called for, I would love 
to see it.
    I think two good ideas have come out today--I think the 
idea, again, of moving assistance away from Ms. Faiza Abou el-
Naga's ministry, and I would say have an audit of the billions 
that have gone through her ministry for the last 10 years, find 
out why the Egyptian people, by and large, didn't see any 
benefit from that.
    Ms. Jackson Lee. Mr. Wollack?
    Mr. Wollack. Well, all I would say is I think beginning on 
January 26, after the revolution, and after the departure of 
President Mubarak, there was a great hope that a new Egypt was 
emerging. And I think in the long term a new Egypt will emerge 
from a number of crises that have beset the country.
    And we have seen over the past year a proliferation of 
political parties, civic organizations, and citizens who for 
the first time are talking to one another and engaging----
    Chairman Ros-Lehtinen. Thank you.
    Mr. Wollack [continuing]. In the country's political 
process. And I think we have to understand and recognize that 
there are tens of thousands of Egyptians who believe deeply in 
their country's future, and want to work with the international 
community, believing there is something----
    Chairman Ros-Lehtinen. Thank you very much.
    Thank you, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you.
    Chairman Ros-Lehtinen. And we are out of time. Thank you so 
much to excellent panelists, and I am sure that when they say 
``gentlemen'' they meant it in a generic way. Gentlelady as 
well. Twice that happened.
    And the hearing is adjourned. Thank you.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<func.-of><brit-pound><natural><Rx><box><natural> 
                      stat<box><acctof><box><Rx>t\

Prepared Statement of the Honorable Robert Turner, a Representative in 
                  Congress from the State of New York
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      <F-dash><func.-of><Register>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<because><F-dash><Register>s <bullet><natural><pound><acctof> 
                 <Copyright>a<natural><Rx>a<star>a<Rx>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Re
                               sponses 
                               from 
                               Craner deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Re
                               sponses 
                               from 
                               Freedom 
                               House deg.
 Responses from the Honorable David J. Kramer, president, Freedom House
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Re
                               sponses 
                               from 
                               Wollack deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                                 <all>

</pre></body></html>
